<html>
<title> - UNMANNED AIRCRAFT SYSTEM IN ALASKA AND THE PACIFIC REGION: A FRAMEWORK FOR THE NATION</title>
<body><pre>[Senate Hearing 109-1153]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1153

UNMANNED AIRCRAFT SYSTEM IN ALASKA AND THE PACIFIC REGION: A FRAMEWORK 
                             FOR THE NATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>












                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-809 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2006....................................     1
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     1

                               Witnesses

Justice, Rear Admiral Wayne, Assistant Commandant for Response, 
  U.S. Coast Guard...............................................    22
    Prepared statement...........................................    23
Lautenbacher, Jr., VADM Conrad C., U.S. Navy (Retired); Under 
  Secretary of Commerce for Oceans and Atmosphere; Administrator, 
  National Oceanic and Atmospheric Administration (NOAA), U.S. 
  Department of Commerce.........................................     3
    Prepared statement...........................................     4
Madden, John W., Deputy Director, Homeland Security, Division of 
  Homeland Security and Emergency Management, Department of 
  Military and Veterans Affairs, State of Alaska.................    10
    Prepared statement...........................................    12
Sabatini, Nick, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration (FAA)..........................    17
    Prepared statement...........................................    19

                                Appendix

Response to Written Questions Submitted by Hon. Daniel K. Inouye 
  to:
    Rear Admiral Wayne Justice...................................    33
    VADM Conrad C. Lautenbacher, Jr..............................    33
    Nick Sabatini................................................    34

 
UNMANNED AIRCRAFT SYSTEM IN ALASKA AND THE PACIFIC REGION: A FRAMEWORK 
                             FOR THE NATION

                              ----------                              


                        THURSDAY, JULY 13, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. I might state at the outset, we have four 
votes scheduled to commence right now at 2:30. Is it 2:45 now? 
2:45, and we want to continue this hearing as long as we can 
before we have to go over to vote and we will come back as 
quickly as we can.
    Unmanned aircraft have been used by the military since 
World War II. The Army Air Corps, in which I served, used B24s 
loaded with explosives and remotely piloted them into Nazi 
Germany. Back then pilots took these aircraft off and jumped 
out once the plane was airborne--the planes would then be 
remotely flown to the target. In fact, our good friend, Senator 
Kennedy's oldest brother, Joe, died in one of those unmanned 
aircraft.
    Today, unmanned aircraft can fly by themselves and they're 
playing an intricate part in fighting the War on Terror. This 
is a Raven. It weighs, I'm told, about four pounds and there 
are about 4,000 of them now deployed worldwide in the War on 
Terror, particularly in Afghanistan and Iraq. Young sergeants 
launch and fly these unmanned aerial vehicles (UAVs). First 
responders like the Forest Service fire fighters who use 
systems like this are required to file a flight plan and to 
have approval of the FAA. The Global Hawk, which has a 130-foot 
wingspan and weighs over 32,000 pounds and flies up to 60,000 
feet. It is certified for flight operations and is cleared the 
same way as this Raven would be cleared.
    We've asked the FAA to testify today and we hope to be able 
to work with all of you and work together to get these UAVs 
classified and approved for non-military use. More importantly, 
we hold this hearing today so we can discuss how the unmanned 
aircraft service can help the missions of NOAA and the Coast 
Guard, two very important agencies whose missions are to 
protect and save lives, and are probably subject to the 
jurisdiction of this committee. From climate research to search 
and rescue, there are boundless opportunities for these 
unmanned aircraft to help these agencies better accomplish 
their missions and it is my hope that we will be able to 
discuss whether Alaska and the Pacific region in general is the 
best place to test these unmanned aircraft systems.
    Senator Inouye, do you have a statement?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. When one considers that the Pacific area 
makes up about half of the exclusive economic zones of the 
United States and we are not able to cover that by manned 
aircraft, or manned vessels, I think this makes good sense. Mr. 
Chairman, I'm all for it.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Mr. Chairman, I am pleased we are evaluating the potential uses of 
unmanned aerial systems (UASs) for non-defense purposes in the Pacific 
Region.
    The Department of Defense has made good use of these systems, but 
they have tremendous potential for civil applications for a variety of 
purposes, from research to enforcement.
    As you know, the Western and Central Pacific exclusive economic 
zone (EEZ) constitutes a full 46 percent of the entire U.S. EEZ. It is 
a vast area that we are not yet able to cover sufficiently with manned 
vessels and aircraft.
    I hope that our witnesses will discuss how we can safely use UASs 
in our region, especially to fill the gaps needed to monitor foreign 
incursions into our EEZ, or improve protection of our marine resources, 
particularly in our marine sanctuaries and the Northwestern Hawaiian 
Islands.
    I am pleased the agencies have proposed using existing air bases in 
Hawaii as part of these efforts. I would like to know more about the 
costs, technical feasibility, and safety precautions we would need to 
have in place for such a program to proceed.
    I want to stress that we must retain and strengthen our manned 
capabilities in the region. These systems cannot supplant them. The 
advantage of the unmanned systems is that they can fill gaps that we 
cannot now cover with vessels and aircraft.
    I look forward to learning how we may move forward. However, public 
safety is of paramount importance. These systems should be used to 
enhance, not erode, our existing monitoring and enforcement 
capabilities.
    We must have realistic expectations of what these systems can 
deliver, and I hope our witnesses will keep that in mind.

    The Chairman. Thank you, Senator. We will print your entire 
statement in the record.
    We have testifying here today, Vice Admiral Conrad 
Lautenbacher, the NOAA Administrator; Rear Admiral Wayne 
Justice, the Assistant Commandant for Response, U.S. Coast 
Guard; Nick Sabatini, Associate Administrator for Aviation 
Safety for the FAA; and John Madden, Deputy Director of the 
State of Alaska Homeland Security Division.
    Thank you all for coming today and we look forward to your 
statements. All of the statements will be inserted into the 
record and it's our intention to listen to all of you without 
any interruption as you go through your statements.
    Admiral, you are first.

   STATEMENT OF VADM CONRAD C. LAUTENBACHER, JR., U.S. NAVY 
     (RETIRED); UNDER SECRETARY OF COMMERCE FOR OCEANS AND 
  ATMOSPHERE; ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
       ADMINISTRATION (NOAA), U.S. DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you, Mr. Chairman, Senator 
Inouye, and distinguished staff members here today. Thank you 
very much for this opportunity for this hearing to talk about 
our use and potential use of unmanned aircraft systems (UAS) in 
the future. Our goal, I think that most of you know, in NOAA is 
to create a world in which we can forecast much better in the 
future and much more accurately things like winter weather, 
storms, drought, air quality, and severe weather such as 
hurricanes and tornadoes. We're working together with a number 
of other agencies to build the Global Earth Observation System 
of Systems (GEOSS) in encompassing a network of all Earth-
observing assets from space to the bottom of the ocean. We 
believe that UAS systems could play an extremely vital role in 
filling in the gaps that we have in a Global Earth Observing 
Systems of Systems, particularly in monitoring our oceans and 
our atmosphere. They provide unique capabilities for dirty, 
dull and dangerous missions. Dirty because they can fly into 
contaminated areas, dull because they allow for long transit 
times and open new dimensions of persistent surveillance and 
tracking and dangerous because they can fly into remote or 
hazardous areas impractical for manned flight.
    We have recently begun exploring potential incorporation of 
UAS technology into our scientific and operational missions to 
improve efficiency. In July 2005, I convened an internal 
Unmanned Aircraft Systems Steering Committee and Working Group 
and asked this group to identify areas and activities within 
NOAA that could benefit from the use of UAS. The Group's 
response included climate and weather operations, oceanic and 
atmospheric research, monitoring fires and fisheries 
enforcement. Parallel to this effort, NOAA has completed four 
successful demonstrations on the potential ability of UAS to 
support our needs for mapping, observation, monitoring and 
surveillance. In one of these projects we flew a UAS into a 
tropical storm for the first time. This demonstrated the 
ability of UAS to obtain some new observations that could 
potentially help improve hurricane forecasts.
    Our successful demonstrations laid the foundation for us to 
continue to test these platforms. Alaska is an excellent 
location for NOAA to develop a test program because of the 
unique diversity of NOAA missions there. For example, observing 
climate and ecosystem changes in many parts of that country, 
that state. In Alaska in the Arctic we have the snow, the 
permafrost and ice which magnify climate changes. UAS could 
collect additional measurements, especially over the Arctic 
Ocean which would help predict future effects of climate 
change.
    Another NOAA mission to provide weather and climate 
information to enable safe transportation is also very 
important. We work with the National Ice Center in Anchorage 
and forecast sea ice year round for the military and fishermen. 
UAS could provide additional observations in an effort to 
improve these forecasts and warnings.
    Volcanic and forest fire monitoring and forecasting also 
can be potentially supported by UAS. The volcanic ash is 
dangerous to jet aircraft and most of the volcanoes in the U.S. 
airspace are located along or around the Pacific Coast of 
Alaska and Hawaii. UAS could provide higher resolution, real-
time data to improve plume position forecasting and minimize 
the risks to flights in our airspace. UAS could also survey 
forest fires during the day or night to detect hot spots and 
provide forecast data to enhance our partners' safe 
mobilization of fire crews.
    A final example of a potential UAS mission is the 
monitoring and protection of marine resources along the State's 
6,600-mile coastline. Protecting and mapping this vast area 
including the multi-billion dollar fisheries is daunting. UAS 
could supplement traditional enforcement methods and provide 
longer sustained monitoring at remote locations.
    The potential benefits of UAS's capabilities extend beyond 
the many possible missions and activities in Alaska. As you 
know, President Bush recently designated the Northwestern 
Hawaiian Islands as a marine national monument. The monument is 
one of the least accessible of our national treasures.
    UAS based in Hawaii could control the monument while 
collecting scientific data in support of NOAA's other missions. 
For example, a NOAA-supported demonstration flight showed a UAS 
based out of Kauai could potentially collect climate and air-
quality data to provide improved forecasts for the continental 
United States.
    NOAA has learned a great deal about the potential uses of 
UASs, their capabilities and the many ways in which they could 
help us to meet our missions. I say potential because at this 
point of our observation evaluations, several challenges 
remain, including FAA qualification for unrestricted or 
partially unrestricted use in current airspaces and how best to 
integrate these systems with our existing systems and the cost.
    However, it's my belief that UAS capabilities have the 
potential to alter and improve significantly how we monitor and 
respond to changes in the Earth's environment and improve 
efficiency. They will in the future, in my view, become 
absolutely essential to our ability to provide the kinds of 
forecasts and warnings and monitoring that the world needs to 
sustain its economic and environmental quality.
    With that, Mr. Chairman, I am happy to answer any questions 
you have and look forward to the hearing. Thank you.
    [The prepared statement of Admiral Lautenbacher follows:]

   Prepared Statement of VADM Conrad C. Lautenbacher, Jr., U.S. Navy 
   (Retired); Under Secretary of Commerce for Oceans and Atmosphere; 
Administrator, National Oceanic and Atmospheric Administration (NOAA), 
                      U.S. Department of Commerce
Introduction
    Thank you, Mr. Chairman and members of the Committee, for inviting 
me here today to present testimony on the potential use of unmanned 
aircraft systems, or UAS, to improve oceanic and atmospheric 
observations. I am Vice Admiral Conrad Lautenbacher, Under Secretary of 
Commerce for Oceans and Atmosphere and Administrator of the National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce.
    Many of you may be familiar with NOAA's use of unmanned or 
autonomous underwater vehicles, but NOAA is also interested in unmanned 
aircraft systems (UAS) as a tool to explore and gather data to help us 
reach new heights in our ability to understand and predict the world in 
which we live. Use of UAS could help NOAA achieve our mission goals to 
conserve and manage coastal and marine resources to meet the economic, 
social, and environmental needs of our Nation.
    NOAA constantly seeks better and more cost effective strategies to 
meet our mission goals and responsibilities, and this includes 
evaluating emerging technologies and the roles they could play in our 
work. UAS are an example of one emerging technology NOAA is exploring. 
My testimony today provides background on UAS as a potential platform 
for collecting data, and how they could be used to help NOAA accomplish 
its mission in Alaska and the Pacific, across the nation, and around 
the world as part of our global commitments.
Earth Observations: UAS Provide Complementary Data
    The Global Earth Observation System of Systems (GEOSS) is an 
international effort that is working to link Earth observing systems 
from over 60 countries to improve global coverage. With benefits as 
broad as the planet itself, this U.S.-led initiative promises to make 
people and economies around the globe healthier, safer, and better 
equipped to manage basic daily needs. UAS could be a valuable part of 
GEOSS by contributing more information and improving our observational 
capabilities and forecasts.
    UAS have the potential to provide more comprehensive information on 
atmospheric conditions in the area between satellites and surface-based 
sensors. For example, UAS can perform functions that satellites cannot, 
such as dropping specialized sensors (dropwindsondes) from high 
altitudes to obtain vertical profiles of crucial atmospheric variables. 
In other words, the dropwindsondes are able to take a series of 
measurements within a column of the atmosphere giving a ``top-to-
bottom'' snapshot of conditions. These measurements include cloud 
properties, aerosols (small particulates), radiation (sun's rays or 
sun's energy), temperature, humidity, and winds. The complementary data 
that UAS provide could enable us to improve our weather and climate 
predictions.
UAS: Sentinels of the Sky
    UAS are a developing segment of the aviation industry and are often 
used by U.S. military and intelligence agencies overseas. Civilian 
agencies, like NOAA, have only recently begun demonstration projects to 
test the mission-focused utility of these platforms. UAS could allow 
NOAA to carry instruments to remote locations too dangerous or 
impractical for manned flight, and provide unique capabilities for 
dirty, dull, and dangerous missions. Dirty, because they can fly into 
contaminated areas; dull, because they allow for long transit times and 
open new dimensions of persistent surveillance and tracking; and 
dangerous, because they can fly into hazardous areas minimizing the 
risk to human life.
    Because UAS do not carry a human pilot, they function independently 
or remotely with ground-based operators. UAS launch from land, air, or 
ship-based platforms, and can carry internal or external payloads of 
scientific equipment. A typical UAS consists of the aircraft vehicle, a 
manned ground flight-control station, ground data retrieval and 
processing stations (including satellite communications links), and 
sometimes, the wheeled land-based vehicles that carry launch and 
recovery platforms. A comprehensive UAS base of operations also 
requires launch hangars and maintenance facilities.
    UAS are highly sophisticated sensor platforms that can be selected, 
modified, and deployed to meet different missions. There are many 
different types of UAS; some have a wingspan as large as a Boeing 737 
(93 to 112 feet), while others are the size of a model airplane (one 
foot). The payload capacities of UAS that NOAA has tested or examined 
can carry as little as one pound, or as much as 3,000 pounds of 
equipment. Flight endurance of UAS range up to more than 30 hours, and 
some can reach an altitude of almost 65,000 feet. Additionally, the 
instrument packages on UAS can be recalibrated or changed prior to each 
flight, providing a research platform that can be regularly altered to 
suit changing needs.
NOAA's Interest in UAS
    Over the past few years, NOAA has considered how to incorporate UAS 
technology into our scientific and operational missions. In July 2005, 
NOAA convened an internal Unmanned Aircraft Systems Steering Committee 
and Working Group. This body is responsible for advising NOAA's line 
offices, goal teams, and programs on the potential application of UAS 
technology to meet mission goals. The Working Group has identified many 
diverse areas within NOAA that could benefit from the use of UAS, 
including:

  <bullet> Climate and weather operations
  <bullet> Oceanic and atmospheric research
  <bullet> Monitoring and evaluating ecosystems
  <bullet> Monitoring endangered species
  <bullet> Mapping and charting
  <bullet> Weather and climate satellite calibration and verification
  <bullet> Monitoring fires
  <bullet> Monitoring marine sanctuaries
  <bullet> Fisheries enforcement

    The Working Group has also identified common interests and 
coordinated collaborative activities with: the National Aeronautics and 
Space Administration (NASA); the Federal Aviation Administration; the 
Department of Energy; the National Science Foundation; the Department 
of Homeland Security including the U.S. Coast Guard; and academic 
institutions such as Scripps Institution of Oceanography and the 
Universities of Colorado, Alaska, Hawaii, and New Mexico. Since 2005, 
NOAA has worked with our partners to complete four successful UAS 
demonstration projects, and we have plans for more in the next few 
years.
    From April to November 2005, NOAA and NASA successfully completed a 
series of high-altitude, long-endurance (HALE) Altair UAS flights off 
the coast of California and Oregon. The Altair UAS was initially built 
to support NASA's Earth science research needs. The Altair 
demonstration included five flights totaling 45 flight hours, including 
an 18-hour 45,000-foot high flight over the Pacific Ocean, carrying 
instruments for measuring ocean color, atmospheric moisture and 
chemical composition, and temperature, as well as a surface imaging and 
surveillance system. This project demonstrated the possibility of using 
a HALE UAS in support of NOAA's research operational needs for mapping, 
monitoring and surveillance.
    In September 2005, NOAA, NASA and industry partners successfully 
flew an Aerosonde UAS into Tropical Storm Ophelia. At the time, Ophelia 
was a 55-knot tropical storm located off the North Carolina coast, and 
this marked the first time a UAS had flown into a tropical storm. This 
mission used the unique capabilities of UAS to document areas of the 
tropical storm environment near the surface of the ocean that have 
historically been either impossible, or impractical, to routinely 
observe by either NOAA or U.S. Air Force Reserve hurricane hunter 
aircraft. This demonstration showed the ability of UAS to obtain 
continuous low-level observations. These observations may be useful in 
improving future forecasts of hurricane intensity change when the 
information collected by these aircraft are incorporated into NOAA 
computer models used to predict hurricane track and intensity.
    In February 2006, NOAA participated in a field demonstration of the 
aerial survey capabilities of the Silver Fox UAS over the Hawaiian 
Islands Humpback Whale National Marine Sanctuary. The Silver Fox is a 
small, low-altitude, short-endurance UAS that was developed with Office 
of Naval Research funding to function primarily as an expendable, over 
the horizon, surveillance tool that could be launched from ships or 
from land. At the demonstration, the Silver Fox UAS was used to observe 
surface ocean features, living resources, and vessels, and demonstrated 
the potential of UAS for monitoring threatened and endangered species 
like whales, as well as illegal, unregulated and unreported fishing 
activities.
    During a demonstration project in February and March 2006, NOAA's 
Climate Program supported the use of three Manta UAS based out of 
Hanimaddhoo Island in the Maldives. The UAS were equipped with 
radiation and aerosol sensors to detect anthropogenic smog from India. 
The flights also coordinated with the ground-based measurements made at 
the Maldives Climate Observatory, part of NOAA's Earth System Research 
Laboratory Global Monitoring Division. This project demonstrated the 
ability of UAS to obtain new information about how aerosols and clouds 
regulate planetary albedo (light reflection), which can affect our 
weather and climate.
Potential Roles for UAS in Alaska
    The demonstration projects outlined above show the potential 
utility of UAS in providing additional observational data to assist 
NOAA in meeting our mission goals. Alaska's location, size, and 
extensive coastline make it a unique setting to evaluate the potential 
contributions UAS can make toward achieving NOAA's mission.
Climate and Ecosystem Monitoring
    NOAA is observing climate and ecosystem changes in many parts of 
the world, including Alaska and the Arctic region. UAS could provide 
additional climate observations lacking from the Arctic due to the 
physical and geographic challenges we face there. Long-term atmospheric 
measurements repeatedly taken from the same place are the ``gold 
standard'' for climate change detection. The Arctic Ocean--covered by 
sea ice most of the year--is a particularly difficult area to take 
long-term measurements because sea ice drifts, and the entire ice 
shield rotates clockwise. This means that stations established on the 
ice move, and repeated measurements cannot be taken from the same 
location. Long-term detailed measurements of temperature, solar 
radiation, clouds, and aerosols from fixed points over the Arctic Ocean 
would be helpful in advancing our understanding of the region and the 
extent of change that is occurring. UAS may be an effective platform to 
obtain these measurements because of their ability to go on long 
flights to remote areas, and because they can potentially deploy the 
sensors needed to take high-resolution measurements of critical 
atmospheric properties at fixed locations on a routine basis.
Operational Sea Ice Monitoring
    As part of NOAA's mission to provide weather and climate 
information to enable safe transportation, NOAA's National Weather 
Service Weather Forecast Office in Anchorage, Alaska forecasts sea ice 
year round. NOAA partners with the United States Navy and United States 
Coast Guard to operate the National Ice Center, which provides global 
ice analysis and forecasts including strategic and tactical ice 
services tailored to meet the operational requirements of U.S. 
military. Sea ice is a major marine hazard in Alaska's Bering, Chukchi, 
and Beaufort Seas, and can trap and even crush a ship. Ship operators 
require precise up-to-date information on the location of ice edges, 
leads and open water, and the type and concentration of ice along their 
vessel's route. Anticipating sea ice formation is critical for 
maintaining navigational safety, and is essential for supporting 
Alaska's marine fisheries. Dropwindsonde and monitoring sensors 
released by a UAS could further NOAA's efforts in sea ice forecasting 
by providing timely information on the conditions that foretell rapid 
sea ice formation in the Arctic. This information could potentially 
assist in the dissemination of more timely and accurate navigation 
warnings.
Weather Observations and Predictions
    Beyond the short term (6 to 12 hours), weather forecasts are 
primarily based on Numerical Weather Prediction (NWP) models. NWP model 
forecasts depend on the amount and quality of observational data 
regarding the current state of the atmosphere, land, and ocean surface 
conditions. Alaska lacks the conventional observational coverage 
present in the continental United States, and UAS could provide 
additional observations to improve weather forecasts and warnings. The 
potential improvements would not only benefit Alaska, but the nation, 
due to the prevailing storm track that steers many weather systems from 
the Gulf of Alaska and North Pacific toward the continental United 
States.
    In addition to the NWP uses of UAS data, this real-time data could 
contribute to the database from which the National Weather Service 
(NWS) develops forecasts, watches and warnings. All of the NWS forecast 
and warning programs (public, marine, fire weather, aviation, and 
hydrologic) could directly benefit from these observations.
Fire Prediction and Surveying
    The 2004 and 2005 fire seasons in Alaska were the worst since 
records began more than 50 years ago, with 6.6 million and 4.4 million 
acres burned respectively. There are several major advantages of using 
UAS for fire weather forecasting and fire prediction and surveying over 
Alaska, including its long-flight endurance and its capability of high-
risk flights over dangerous or remote regions. UAS with the capability 
of flying for long periods could survey existing wild fires, detect hot 
spots, and help predict the weather conditions around wild fires and 
fire's future track.
    NOAA's National Weather Service Weather Forecast Offices provide 
spot weather forecasts to enhance our land management partners' 
decision-making process. This assists with advanced mitigation planning 
and safe mobilization of fire crews during wild fire suppression 
activities in Alaska and around the Nation. These forecasts account for 
the potential influence of forest fires on local weather conditions and 
provide vital, localized detail on wind conditions and the impact to 
fire behavior. UAS are a potential tool for gathering site specific 
data on fire weather conditions to further improve NOAA's spot weather 
forecasts. In addition, UAS could provide valuable information on hot 
spots within a fire which could benefit fire weather forecasters and 
those responsible for coordinating firefighting resources. The long 
flight time of UAS would be particularly well-suited to surveying fires 
that occur in remote areas of Alaska. In addition to helping to 
forecast fire weather, UAS could help with predicting the threat of 
fires. NOAA scientists in Alaska analyze meteorological and soil 
moisture data to predict forest fire potential and issue fire warnings. 
UAS could potentially play a role in fire prediction by providing more 
meteorological data to validate fire advisory models.
    Forest fires also impact air quality in Alaska and throughout the 
nation. Emissions of gases (carbon monoxide, ozone, oxides of nitrogen 
and sulfur) and aerosols from fires degrade the local air quality. 
Observations of these pollutants by UAS could improve our air quality 
models and extend the NWS Air Quality Forecast Guidance for ozone 
concentration averages across the country. In addition, emissions of 
trace gases and aerosols from forest fires and subsequent deforestation 
can affect climate change. The use of UAS to collect data on these 
emissions from remote areas has the potential to impact NOAA's efforts 
to better understand climate.
Volcanic Monitoring and Forecasting
    Volcanic ash is hazardous to aircraft flying over Alaska and the 
entire North Pacific Region, as well as to the maritime community and 
general public. The national and international aviation communities 
have taken action to help aircraft avoid such dangerous environments. 
In the mid-1990's, the International Civil Aviation Organization (ICAO) 
and NOAA reached an agreement whereby NOAA monitors satellite imagery 
and data to detect volcanic eruptions and, in the event of an ash 
eruption, issues advisories and warnings for the aviation community. 
NOAA also runs computer simulations to forecast the dispersion of 
volcanic ash. NOAA, the U.S. Geological Survey (USGS), and the Federal 
Aviation Administration (FAA) work in a strong partnership to monitor 
and mitigate the effects of volcanoes on aviation.
    There are over 100 historically active volcanoes across Alaska, the 
Kamchatka territory of Russia, and the Northern Kurile Islands that can 
affect U.S. airspace. Enhanced remote sensing systems, such as UAS, 
could be used to closely monitor these volcanoes and collect higher 
resolution real-time data in order to improve plume position 
forecasting. UAS could be useful in helping researchers and forecasters 
obtain data on the extent, composition, and density of ash plumes in 
Alaska. Ash extent data captured by sensors on UAS could be integrated 
into the operational forecast process and used to verify current 
volcanic ash detection techniques. Knowing ash density and composition 
would help improve ash fallout and dispersion forecasting and warnings. 
Sensors could also be released en-route to acquire wind speed and 
direction information.
Fisheries, Marine Mammals, and Sanctuaries Observations and Enforcement
    NOAA's Office for Law Enforcement (OLE) helps protect and conserve 
our Nation's marine resources and their natural habitats along our 
coasts and within the U.S. Exclusive Economic Zone (EEZ). Our EEZ is 
the largest in the world spanning over 12,300 miles of coastline and 
contains 3.4 million square nautical miles of ocean--larger than the 
combined land mass of all 50 states. Alaska's coastlines alone are over 
6,600 miles, and the task of monitoring and protecting this vast area 
is daunting.
    OLE also provides direct enforcement support to a number of 
critical programs involving fisheries, endangered and threatened 
species, marine mammals, international commerce, and many other areas. 
For example, OLE and other Federal agencies protect the U.S. domestic 
fisheries industry, which has a national value close to $44.7 billion a 
year. Of this national total, one third represents Alaska's fisheries.
    Traditional enforcement methods in Alaska involve deploying 
aircraft for surveillance and using various vessels for at-sea 
coverage. NOAA currently relies on significant support from the U.S. 
Coast Guard for these methods of surveillance, and UAS could supplement 
these resources in the execution of our regional enforcement 
strategies.
River Flood Monitoring and Forecasting
    The mission of NOAA's Alaska River Forecast Center (AKRFC), part of 
the NWS, is to provide watches and warnings for flooding along all 
streams in Alaska. In addition to floods caused by rainfall or 
snowmelt, a common cause of flooding in Alaska is the breakup of ice 
jams. The AKRFC has monitored the breakup of rivers throughout Alaska 
for over two decades using field reconnaissance (including traditional 
aircraft) and observational networks (including satellites). While 
useful, these methodologies have their limitations. For example, given 
the vast size of Alaska, it is not possible to cover the entire 
territory using traditional aircraft surveys. Satellite-based 
information sometimes has to be scheduled 2 weeks ahead of time and 
requires clear skies. UAS could enhance NOAA's field reconnaissance 
capability, because of their increased flight autonomy and ability to 
directly downlink remote sense information.
Potential Roles of UAS in Hawaii
    NOAA's work reaches to every corner of our nation, and the 
application of a UAS program could also extend to the Hawaiian Islands.
    As an example, on June 15, President Bush designated the 
Northwestern Hawaiian Islands as a marine national monument. 
Encompassing nearly 140,000 square miles, the monument covers an area 
larger than all of our national parks put together. The creation of the 
largest marine conservation area in the world is an exciting 
achievement and recognizes the value of marine resources to our Nation.
    The monument is one of the least accessible of our national 
treasures and presents ongoing challenges to ensure its monitoring, 
conservation, and protection. UAS based in Hawaii could take 
measurements of the monument and other Pacific Island regions that are 
too remote for most sustained manned aircraft observations. UAS have 
potential to address a number of additional issues in the Pacific 
including detection of marine debris, monitoring coral reef bleaching, 
and supplementing our national climate and weather prediction models.
The Challenges Ahead
    NOAA has learned a great deal about the potential uses of UAS, 
their capabilities, and the ways in which they could help us meet 
challenges, create solutions, and produce results. Despite the 
potential for expanded observational capability that UAS represent in 
Alaska and other parts of the nation, a number of significant 
challenges remain, including platform cost and how best to integrate 
UAS into existing systems.
    By virtue of development of UAS for military purposes, the United 
States has a commanding lead in UAS technology. As the technological 
maturity of UAS continues to increase, UAS have the potential to become 
a lower cost alternative to traditional research and operational 
missions. We will continue to explore the most cost-effective 
strategies to meet our mission goals and responsibilities.
    The costs of purchasing a UAS range from less than fifty thousand 
dollars to tens of millions of dollars depending upon the desired 
aircraft performance requirements, such as range, duration, payload, 
altitude, and the sensors onboard. As described in a recent NASA report 
to Congress (Potential Use of Unmanned Aircraft Systems (UAS) for NASA 
Science Missions), the 2004 NASA commissioned study, Cost and Business 
Model Analysis for Civilian UAS Missions, found that ``for the 
foreseeable future, the cost-per-hour-per-pound-of-payload will be at 
least an order of magnitude larger for a UAS when compared to a 
conventional manned aircraft.'' This additional cost may be reasonable, 
if the platform gathers data not otherwise accessible by manned 
aircraft because of safety concerns or aircraft performance 
limitations. UAS-based missions are not likely to replace traditional 
manned aircraft missions in the near future, but will instead 
complement and enhance them by providing unique datasets.
Concluding Remarks
    NOAA constantly seeks better and more cost-effective ways to 
accomplish its mission for the Nation as we work to understand and 
predict changes in the Earth's environment. Through our NOAA Observing 
Systems Council and other related NOAA Councils, we continue to work 
toward coordinating observational and data management activities across 
NOAA; proposing priorities and investment strategies for observation 
related initiatives; and identifying programs that might benefit most 
from integration. UAS are an example of the emerging technologies NOAA 
is exploring that have the potential to alter how we monitor and 
respond to changes in the Earth's environment, much like radar and 
satellites did in the 1950s and 1960s. NOAA will continue to examine 
how UAS, and other emerging technologies, could assist us as we develop 
our daily weather forecasts, manage our Nation's marine resources, and 
research the changes occurring in our climate.
    Mr. Chairman, I am happy to answer any questions that you, or other 
members of the Committee, may have.

    The Chairman. We will now go to John Madden, Department of 
Homeland Security.

         STATEMENT OF JOHN W. MADDEN, DEPUTY DIRECTOR,

        HOMELAND SECURITY, DIVISION OF HOMELAND SECURITY

            AND EMERGENCY MANAGEMENT, DEPARTMENT OF

         MILITARY AND VETERANS AFFAIRS, STATE OF ALASKA

    Mr. Madden. Thank you, Mr. Chairman and members of the 
Committee, for inviting me to present testimony on the concept 
of unmanned aerial systems in Alaska and the Pacific Region. I 
am the Deputy Director for Homeland Security for the State of 
Alaska, but previously I did work for the Federal Aviation 
Administration, for the National Weather Service and also 
worked on the Joint Cruise Missile Project during my Federal 
career.
    I learned of the NOAA initiatives about a year ago in which 
they wanted to conduct flights over the Arctic to improve their 
observations. On April 18 of this year, the State of Alaska 
hosted an open workshop on unmanned aerial systems. There were 
55 attendees from 34 Federal and State agencies, as well as 
private sector companies and some non-profit organizations. We 
exchanged information on current UAS activities and technology 
around the world and identified potential uses of unmanned 
aircraft vehicles and systems in Alaska. Some potential 
missions recurring through the workshop included as my 
associate said, Arctic climate and weather research, 
ecosystems, habitat, volcanoes and wildfire aid, but also as an 
emergency communications platform, monitoring of critical 
infrastructure and search and rescue.
    I will leave it to my associates in NOAA to describe the 
scientific missions within Alaska, but I emphasize whatever 
conditions NOAA detects and whatever predictions arise from 
their improved climate models, Alaska and its people, its 
economy and its culture, will be affected first.
    A significantly large amount of critical infrastructure in 
Alaska is located in remote areas. This infrastructure is 
critical not only to the people and economy of Alaska, but to 
the Nation and we Alaskans take this charge very seriously and 
devote a significant amount of state, local and corporate 
resources to deter, detect and defend against all hazards and 
threats.
    Through the coordinated use of unmanned aerial systems, we 
could radically improve our ability to integrate all of these 
protective activities and eliminate any gaps, seams and 
overlaps in security.
    It is in the area of fire management in which the diversity 
of UAS missions is dramatically demonstrated. I foresee a fleet 
of unmanned aerial systems providing support. High altitude 
providing the perimeters of a fire and identifying the hot 
spots, a medium altitude providing a communications platform 
independent of the terrain and a lower level dropping sondes to 
improve the weather prediction.
    River ice and flooding are recurrent problems within 
Alaska. Each spring as the ice begins to break up, dozens of 
river communities endure the uncertainty if or when they may be 
flooded. During the Yukon River breakup of May 2006, 150 miles 
of ice flowed down the Yukon with the potential of blocking the 
river at any turn and flooding several communities. The river 
watch program of the National Weather Service in NOAA in the 
State of Alaska, flew small, piloted aircraft at low speed, low 
altitude at great risk to monitor and assess the ice.
    Unmanned aerial systems could gain situational awareness of 
the water conditions and the rapidly changing predictions and 
provide this information to the Federal and State entities 
responsible for protecting the people.
    To accommodate the wide range of aircraft and missions, I 
envision an operations center at one of the hundreds of State-
owned airports in Alaska. The center has hangar and maintenance 
space for the aircraft along with a test area for the payload 
equipment and technology. Near the aircraft base is a center 
for communications, information processing, logistical, and 
administrative support for a range of clients--Federal 
agencies, State academia and industry all linked together 
through a high-speed network of communications.
    There could be accommodations for the actively 
participating organizations, as well as observers from the 
private sector, other states, Federal agencies and nations. 
Most importantly, the center is governed by a doctrine that's 
jointly developed that describes how priorities are set and how 
business is conducted. Through this governance, the 
participating agencies decide under what conditions to 
sacrifice a day of science to conduct a search and rescue, or 
what conditions to delay a wildlife census to monitor a 
threatening volcano.
    I will now describe a potential flight and mission plan for 
an unmanned aerial system within Alaska. While it is unlikely 
that a single flight will ever perform all of these on one 
flight, this hypothetical flight contains several mission 
elements starting with a long-range unmanned aerial vehicle 
launch from a base in Alaska with a primary mission to make 
observations in the Arctic.
    The aircraft quickly climbs through the general aviation 
operating altitudes and heads north on its programmed flight. 
It flies over the Trans Alaska Pipeline System, pump stations 
and river crossings and this information is relayed to the 
appropriate security centers.
    It flies over Ft. Greeley and the national missile defense 
system to monitor for unauthorized access. En route it receives 
a report from the Alaska State Troopers of a missing boat on 
the Yukon River. The center quickly re-routes the aircraft to 
follow the river and relays that imagery to the Alaska State 
Troopers.
    Over the North Slope, the aircraft collects imagery of a 
caribou herd for several Federal and State agencies, as well as 
universities researching the wildlife of that area. The image 
is retained on board for further forwarding.
    It conducts its mission over the Arctic and on its return 
flies over the pipeline and rail and other areas, again from 
monitoring the critical infrastructure. It also can fly through 
the military special use airspace around Fairbanks to simulate 
an aircraft diverting from flight plan. This is a highly 
realistic test for the FAA and NORAD to detect, identify and 
intercept aircraft under these conditions.
    I anticipate that the aviation community in Alaska may 
raise safety concerns about sharing airspace with unmanned 
aircraft. Alaska is the ideal venue to develop and test the 
standards for ensuring the safety of integrating UAS into the 
National Airspace System. While the per capita numbers of 
active pilots and registered aircraft in Alaska are the highest 
in the nation, there is still a great amount of airspace in 
Alaska. For example, there are as many registered aircraft in 
Alaska as in Ohio or Washington State, states with more 
population centers, fewer landing facilities and more 
controlled airspace.
    It is often said and I agree that aviation is the lifeblood 
of Alaska more so than any other state. Alaskans know and 
greatly appreciate the improvements in recent years in aviation 
safety and security and the collaboration between FAA, the 
aviation industry and associations and the flying public is 
innovative, inclusive, and incredibly successful.
    Aviation safety is and will remain vital to the state and 
worthy of the focus and resources afforded it. But it is not 
enough to be safe while in flight as other imminent dangers, 
fires, floods, volcanoes, coastal and river erosion and 
terrorism face our families and our communities. The aviation 
community is a critical component of Alaskan life and it is 
critical to the thoughtful examination and implementation of 
UAS technology in Alaska and across the Nation.
    I have come up with a theme with UAS in Alaska and the 
Nation called ``science, safety and security.'' There is a 
fourth part of that which is sales. For the emerging, unmanned 
aerial system industry in the United States to establish itself 
in the national and the world market, it must demonstrate 
reliable technology that meets business needs and Government 
missions and that operates in the widest range of environmental 
conditions and with logistical support. Alaska is the right 
location for such a testbed because there is more of the world 
like Alaska than many parts of the United States.
    In conclusion, my foremost duty is to provide for the 
safety and security of the people of Alaska. This UAS 
initiative will significantly contribute to that end. Just as 
importantly, I believe that a civilian testbed in Alaska also 
serves the best interests of other states and the Nation as a 
whole. Only in Alaska can we test the full range of potential 
missions of UAS without immediately confronting the complex 
airspace found in most of the rest of the country. Only in 
Alaska can UAS be used to maximum efficiency through one flight 
conducting many missions, and I thank the Committee for this 
and this concludes my prepared remarks and I stand ready to 
answer any questions.
    [The prepared statement of Mr. Madden follows:]

    Prepared Statement of John W. Madden, Deputy Director, Homeland 
   Security, Division of Homeland Security and Emergency Management, 
      Department of Military and Veterans Affairs, State of Alaska
Introduction
    Thank you, Mr. Chairman and members of the Committee, for inviting 
me to present testimony on the potential use of unmanned aerial systems 
(UAS) in Alaska and the Pacific Region. I am the Deputy Director for 
Homeland Security for the State of Alaska and have held this position 
since September of 2005. Before beginning my service to the State of 
Alaska, I served 37 years in seven Federal agencies, most recently 
three years with the Department of Homeland Security and Transportation 
Security Administration in Alaska. For eleven years before that, I 
worked with the Alaskan Region of Federal Aviation Administration 
(FAA). I also worked nine years with the Alaska Region of the National 
Weather Service and National Oceanic and Atmospheric Administration 
(NOAA).
    Before transferring to Alaska from Washington, D.C. in 1982, I 
served with the headquarters of the Department of Energy working on 
fossil fuels research, the Joint Cruise Missile Project of the U.S. 
Navy and U.S. Air Force, several major defense programs, and on active 
duty with the U.S. Army in Vietnam and Washington, D.C.
    With my experience in Federal and state agencies with missions 
supporting science, safety, and security, I am in a position to analyze 
and describe the UAS initiative with a well rounded view.
Initial Concepts
    In October 2005, I first learned of NOAA's interest in UAS in 
Alaska to conduct long-term climate research in the Arctic. I 
understood their objective to be regular and frequent flights over the 
Arctic Ocean taking atmospheric and other scientific measurements to 
improve the climate prediction models.
    I immediately saw a possible dual mission for these flights. During 
the flights to and from the Arctic, the aircraft could monitor the 
critical infrastructure of the Trans Alaska Pipeline System (TAPS), the 
oil production fields of the North Slope, refineries, oil storage 
facilities, and the Alaska Railroad. There was clearly a potential for 
one flight to accomplish two missions.
    As I discussed this possibility with other state agencies and our 
Federal partners, I realized that the range of potential missions was 
far broader than first evident. There was a clear need to examine the 
possibility of unmanned aerial systems achieving many missions on one 
flight--for science, safety, and security. Also, it was evident that 
while several organizations were interested in UAS, there was no forum 
for formal discussions and examination of the technology.
Workshop on Unmanned Aerial Systems in Alaska
    On April 18, 2006, the State of Alaska hosted an open workshop on 
unmanned aerial systems. The 55 attendees represented 34 Federal and 
state agencies, universities, private sector companies, and non-profit 
organizations. At the workshop, we exchanged information on current UAS 
activities and technology around the world and identified potential 
uses of unmanned aircraft vehicles and systems in Alaska. There was a 
strong emphasis on the possibility of Alaska as a testbed for UAS 
technology and applications that may prove beneficial to the entire 
Nation across a broad range of public service missions.
    The attendees at the UAS workshop identified many potential mission 
areas broadly aligned along the themes of science, safety, and 
security. Some potential missions recurring during the workshop 
included Arctic climate and weather research, ecosystems and wildlife 
habitat, monitoring volcanoes and wildfires, emergency communications 
platform, monitoring of critical infrastructure, fisheries enforcement, 
emergency response management, and search and rescue. These are 
representative of the missions that, on first examination, seem 
incongruent and incompatible. However, we found these missions shared 
three common elements:

  <bullet> UAS could improve the effectiveness of achieving the mission 
        of each agency;

  <bullet> an integrated UAS program would likely reduce the costs of 
        many aspects of the individual missions; and

  <bullet> UAS could reduce the risks to flight crews and aircraft 
        often operating in very hazardous conditions.

    Undoubtedly, there are several lists of potential mission areas 
prepared by other organizations. These lists should be seen as 
complementary rather than competitive. The civilian UAS industry is a 
new field and the ideas are emerging rapidly from many quarters. It is 
too soon to definitively include or exclude any single idea. Rather, 
that should be left for a later, more detailed review and planning 
process.
    To describe each potential mission would require testimony of 
several hundred pages. As an expedient, I will describe a few areas 
that illustrate the range and diversity of missions. While I describe 
these missions from an Alaskan perspective, the conditions and 
challenges in Alaska will replicate those found in other states and 
regions throughout the country.

  <bullet> Arctic Climate and Weather Research--I leave it to my 
        associates from NOAA to describe the scientific missions for 
        UAS in Alaska. However, I emphasize that whatever conditions 
        NOAA detects and whatever predictions arise from improved 
        climate models, Alaska--its people, economy, and culture--will 
        be affected first. This mission, as I understand it, requires a 
        platform with intercontinental range, sensing packages, and 
        delivery systems for sondes.

  <bullet> Monitoring of Critical Infrastructure--A significantly large 
        amount of critical infrastructure in Alaska is located in 
        remote areas. This infrastructure is critical to the people and 
        economy of Alaska and the Nation. We Alaskans take this charge 
        very seriously. We devote a significant amount of state, local 
        and corporate resources to deter, detect, and defend against 
        all hazards and threats. To protect just the energy sector--
        power generation and distribution, oil and gas production 
        fields, pipeline, pump stations, refineries, rail transport, 
        and storage facilities--there are more than two dozen federal, 
        state, and local agencies and private sector corporations 
        providing some piece of the overall protection. Through the 
        coordinated use of UAS, we could radically improve our ability 
        to integrate all these protective activities and eliminate any 
        gaps, seams, or overlaps in the security. To meet this mission, 
        a variety of aircraft platforms would be needed.

  <bullet> Fire Management and Response--In this area the diversity of 
        UAS technology and missions is dramatically demonstrated. The 
        rapidly changing nature of firefighting, constantly shifting 
        and always threatening, is extremely challenging to the 
        firefighters and those supporting them. In some future fire 
        scenario, there will be an integrated use of specialized 
        unmanned aerial systems. A high altitude platform continually 
        captures the perimeter, damage, and direction of all fires 
        within range and locates the hotspots within the fire. This 
        information is transmitted real-time to the incident commander 
        who develops and refines the strategy and tactics for the 
        entire fire area. A medium altitude aircraft serves as an 
        airborne radio communications base to ensure every element is 
        in constant contact despite the terrain or ground based 
        stations. A medium to low flying platform drops weather sondes 
        around the fire for atmospheric readings critical to extremely 
        accurate weather predictions down to the range of one 
        kilometer. In the past two years, Alaska has lost more than 11 
        million acres to wildfires--as much as the rest of the Nation 
        combined. There will be no shortage of opportunities to test 
        technology, tactics, and techniques in Alaska that will be 
        immediately useful to other states with wildfires.

  <bullet> Volcano monitoring--Alaska has about 40 volcanoes active in 
        historical times. As recently as January of this year, Mt. 
        Augustine threatened communities along Cook Inlet and the air 
        routes over the Northern Pacific. In recent years, other 
        eruptions from Mt. Spurr, Mt. Redoubt, and Mt. Augustine, 
        disrupted commercial aircraft operations throughout the Pacific 
        and half the country. While NOAA, the FAA, and the Alaska 
        Volcano Observatory have greatly improved their ability to 
        monitor and predict the movement of ash clouds, other 
        information remains difficult to obtain. During the UAS 
        Workshop, there was speculation on the use of small, low-cost, 
        sacrificial unmanned aerial vehicles to fly into volcanic ash 
        clouds to gather and transmit information on the chemical 
        composition and size of the particulate. Also, it would be of 
        significant value to have an unmanned aircraft remain on 
        station for hours or days to monitor and transmit visual and 
        infrared information from the volcano. Again, a variety of 
        unmanned aerial vehicles would supplement the ground and 
        satellite based monitoring resources.

  <bullet> River Ice and Flooding--Each spring as the ice on the 
        Alaskan rivers begin to break up, dozens of river communities 
        endure the uncertainty of if or when they may be flooded. 
        During the Yukon River breakup in May 2006--150 miles of ice 
        traveled downriver with the potential of blocking the river at 
        any turn and flooding several communities. The river watch 
        program of the National Weather Service and the State of Alaska 
        flew small, piloted aircraft at slow speed and low elevation to 
        monitor and assess the ice. This approach places pilot and crew 
        at great personal risk and cannot stay on station for long. 
        Similar conditions of seasonal flooding exist throughout the 
        country. The process of gaining situational awareness of water 
        conditions and rapidly identifying changes to predictions could 
        immediately be exported to other states and regions.

Model for the Civilian UAS Testbed and Operations Center in Alaska
    It was evident from discussions during and since the April workshop 
that no single type of UAS could meet all these missions. Rather, the 
ideal UAS test program would include several platform types--from the 
high altitude, long endurance aircraft requiring a long runway to very 
small aircraft capable of low and slow flight, launched pneumatically 
or by hand, and easily deployed. Also, the UAS initiative is more than 
the vehicles and technology. The unmanned aircraft are essentially 
tools to acquire data and information for the other elements of the 
system to analyze and distribute.
    To accommodate this wide range of aircraft and missions, I envision 
an operations center at one of the hundreds of State owned airports. 
The center is operated by a Federal government agency or contractor. 
The center has hangar and maintenance space for the aircraft along with 
a test area for assembly, test, fabrication, and modification of 
payload equipment and technology. Near the aircraft base is the center 
for communications, information processing, logistical, and 
administrative support for a range of clients--government, academia, 
and industry. The operations center is linked to the clients in Alaska 
and throughout the Nation via high-speed, broadband fiber optic and 
satellite network. The center has sufficient computing power for 
processing, analysis, and archiving huge amounts of data and imagery. 
The center provides for the maximized productivity of each flight hour 
by aligning missions, equipment, sensing packages, and priorities from 
clients. Further, the center would safeguard the information from 
unauthorized access and use.
    Depending on the missions, there may be UAS forward deployed to 
other locations during seasonal events such as flooding, fire, wildlife 
migration, fisheries seasons, and breakup of river ice. There would be 
accommodations for the actively participating organizations as well as 
observers (real or virtual) from the private sector, other states, 
Federal agencies, and even nations. These observers could learn first 
hand the UAS operations relevant to their needs and plans. Each could 
then make informed recommendations and decisions on the transfer of the 
UAS technology and procedures to their constituency or organization.
    The center is governed by a charter that broadly prescribes how 
priorities are set, how conflicts are resolved, and how business is 
conducted. Through this governance, the participating agencies and 
organizations decide under what conditions to sacrifice a day of 
scientific observations to conduct a search and rescue operation or 
under what conditions to delay a wildlife census to monitor a 
threatening volcano.
Profile of One Flight With Many Missions
    I will describe the flight and mission plan for one flight of an 
unmanned aerial vehicle should this initiative be realized. While it is 
unlikely that a single flight will ever perform all of these, this 
hypothetical flight contains several mission elements that, 
individually, would be extremely difficult, dangerous, or expensive 
with manned aircraft or through satellite observations.

        1. A long-range unmanned aerial vehicle launches from a base in 
        Southcentral Alaska with its primary mission to drop weather 
        sondes over the Arctic Ocean. It is also equipped with optical 
        and infrared sensors to accomplish several secondary missions 
        along the way.

        2. The aircraft quickly climbs above the general aviation 
        operating altitudes and heads north on its programmed flight.

        3. As scheduled, the aircraft flies over the Trans Alaska 
        Pipeline System, the pump stations and river crossings. The 
        imagery is relayed through a high-speed, secure downlink to the 
        pipeline security operations center.

        4. The aircraft also flies over Ft. Greeley and the national 
        missile defense base. The imagery is relayed to security 
        forces.

        5. The UAS Operations Center receives a report from Alaska 
        State Troopers of a boat overdue from a trip on the Yukon River 
        from Circle to Fort Yukon. The aircraft is directed to divert 
        slightly to follow and monitor the Yukon River. The aircraft 
        collects the imagery and transmits it to the UAS Control 
        Center. The center quickly analyzes the imagery and relays to 
        the Alaska State Troopers the locations of the most likely 
        search areas. The search by manned aircraft is now more focused 
        and effective.

        6. Over the North Slope, the aircraft begins collecting imagery 
        of a caribou herd for several Federal and state agencies as 
        well as universities researching the wildlife of that area. The 
        imagery is retained onboard the aircraft for later forwarding 
        to the client agencies and universities.

        7. As the aircraft approaches the Arctic Ocean, it flies a 
        scheduled path over the oil fields at Prudhoe Bay and takes 
        optical and infrared images to detect hotspots indicative of 
        leaks and the surrounding areas for unauthorized people and 
        vehicles. The imagery is relayed real time to the pipeline 
        operations center.

        8. Over the next several hours, the aircraft conducts its 
        primary mission of atmospheric observations over a large swath 
        of the Arctic Ocean.

        9. On its return to the mainland, the aircraft follows the 
        flight plan along the pipeline from Prudhoe Bay to Fairbanks, 
        again concentrating on pump stations, river crossings, and 
        other critical elements. It relays imagery in real-time to the 
        pipeline operations center.

        10. The UAS Operations Center receives a report from the Alaska 
        Rescue Coordination Center (RCC) in Anchorage of an emergency 
        locator transmitter detected near Chandalar Lake in the Brooks 
        Range above the Arctic Circle. The Control Center recalls a 
        portion of the imagery already collected for pipeline security 
        and reroutes it to the RCC for analysis and action.

        11. The aircraft flies a planned route through the military 
        special-use airspace near Fairbanks to simulate a commercial 
        aircraft deviating from flight plan. This provides a highly 
        realistic test for the FAA and the North American Aerospace 
        Defense Command to detect, identify, and intercept an aircraft 
        under these conditions.

        12. The flight plan includes a scheduled reconnaissance flight 
        over an active fire area near Nenana. The infrared and optical 
        imagery of the fires is relayed real-time to the Alaska Fire 
        Service in Fairbanks who matches it with information from other 
        UAS on low-level flights.

        13. The aircraft continues southward above the Alaska Railroad 
        and monitors the remote rail bridges before the transport of a 
        large shipment of highly hazardous materials. The imagery is 
        sent real time to the railroad operations center.

        14. The aircraft completes its one flight and its many missions 
        and returns to base. The imagery, atmospheric observations, and 
        other data are downloaded for archiving, distribution, and 
        analysis.

Aviation Safety
    I anticipate that the aviation community in Alaska may raise safety 
concerns about sharing airspace with unmanned aircraft. Alaska is the 
ideal venue to develop and test the standards for ensuring the safety 
of integrating UAS into the National Airspace System. While the per 
capita numbers of active pilots and registered aircraft in Alaska are 
the highest in the nation, there is still a great amount of airspace in 
Alaska. According to FAA records, there were about the same number of 
active pilot certificates in Alaska as in Maryland or Massachusetts, 
states with significantly larger populations but much smaller land area 
and airspace.
    Also, Alaska has about the same number of registered aircraft--
private, corporate, and commercial--as Ohio or Washington State, states 
with more population centers, fewer landing facilities, and more 
controlled airspace. I understand there are many other factors such as 
number of flights, distance and duration of flights, controlled and 
uncontrolled airspace, weather and radar coverage, and the limited road 
system. However, the risks of flying in Alaska are widely recognized 
and increasingly well documented.
    It is often said, and I agree, that aviation is the lifeblood of 
Alaska--more so than any other state. Alaskans know and greatly 
appreciate the improvements in recent years in aviation safety and 
security. The collaboration between FAA, the aviation industry and 
associations, and the flying public is innovative, inclusive, and 
incredibly successful. The most notable programs in recent years are 
the Capstone program, the Medallion Foundation, the Circle of Safety, 
and the statewide system of weather cameras.
    Aviation safety is and will remain vital to the state and worthy of 
the focus and resources afforded it. But there is strong need for the 
aviation community to collaborate on this initiative to confront other 
hazards that are just as threatening to our citizens. It is not enough 
to be safe while in flight as other imminent dangers--fires, floods, 
volcanoes, coastal and river erosion, terrorism--face our families and 
communities. The aviation community is a critical component of Alaskan 
life and it is critical to the thoughtful examination and 
implementation of UAS technology and operations in Alaska and across 
the Nation.
Benefits to the Nation From a UAS Testbed and Operations Center in 
        Alaska
    A civilian UAS operations center in Alaska will facilitate the 
methodical testing and evaluation of existing and emerging technologies 
in challenging field conditions. It also is the perfect laboratory to 
find the best means and timetable for introducing unmanned aerial 
systems into the National Airspace System.
    For the emerging UAS industry in the United States to establish 
itself in the world market, it must demonstrate reliable technology 
that meets business needs and government missions, and that operates in 
the widest range of environmental conditions, and with logistical 
support. Alaska is the right location for such a testbed because there 
is more of the world like Alaska than many parts of the United States.
Conclusion
    My foremost duty is to provide for the safety and security for the 
people and economy of Alaska. The UAS initiative will significantly 
contribute to a safer and more secure Alaska. Just as importantly, I 
believe that a civilian testbed in Alaska also serves the best 
interests of other states and the Nation as a whole. Only in Alaska can 
we test the full range of potential missions of UAS without immediately 
confronting the complex airspace found in most of the National Airspace 
System. Only in Alaska can UAS be used to maximum efficiency through 
one flight conducting many missions--on each flight. Only in Alaska can 
the unmanned aerial system initiative be subjected to the most 
demanding climactic, environmental, logistical, and administrative 
challenges without dooming it to early and avoidable failure.
    This concludes my prepared remarks. I stand ready to answer any 
questions you, or other members of the Committee, may have.

    The Chairman. Next witness is Nick Sabatini, Associate 
Administrator for Safety of the FAA.

                  STATEMENT OF NICK SABATINI,

          ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY,

              FEDERAL AVIATION ADMINISTATION (FAA)

    Mr. Sabatini. Thank you Mr. Chairman. I am pleased to 
appear before you today to discuss the subject that serves to 
remind us that future is now. The development and use of 
unmanned aircraft systems, UAS is the common acronym, is the 
next great step forward in the evolution of aviation. As it has 
throughout its history, FAA is prepared to work with other 
government agencies and industry to ensure that these aircraft 
are both safe to operate and are operated safely. The extremely 
broad range and complexities of UAS makes their successful 
integration into the national airspace system a challenge, but 
certainly one worth meeting.
    At the outset, you must understand that UAS cannot be 
described as a single type of aircraft. UAS can be vehicles 
that range from a 12-ounce hand-launched model to the size of a 
737 aircraft. They also encompass a broad span of altitude and 
endurance capabilities. Obviously, the size of the UAS impacts 
the complexity of its system design and compatibility. 
Therefore, each different type of UAS has to be evaluated 
separately. Interest in using UAS for a range of very different 
purposes is increasing, not only by the Department and agencies 
represented by my colleagues here today, but also by DOD, NASA 
and state and local governments. As you may know, any aircraft 
operated by government agencies, including a UAS is considered 
a public aircraft operation. Consequently, the oversight and 
certification of that aircraft is the responsibility of that 
public agency. These public operations are however required to 
be in compliance with certain basic Federal aviation 
regulations set by the FAA, especially those that ensure that 
the operation of these aircraft does not compromise safety. 
FAA's current role is to ensure that UAS do no harm to other 
operators in the aviation system and to the maximum extent 
possible, the public on the ground.
    If an agency seeks to operate a UAS, FAA works with them to 
develop conditions and limitations for UAS operations to ensure 
that they do not jeopardize the safety of other aviation 
operations. We issue what is known as a Certificate of 
Authorization or COA, with terms that ensure an equivalent 
level of safety as manned aircraft. Usually, this entails 
making sure that the UAS does not operate in a populated area 
and that the aircraft is observed either by someone in a manned 
aircraft or someone on the ground.
    For example, the FAA has worked with Homeland Security to 
facilitate UAS operations along the Arizona-New Mexico border 
with Mexico. In order to permit such operations, we segregated 
the airspace so these UAS flights could operate without an 
observer being physically present to observe the operation. 
Also, last year we worked with NOAA to approve a COA that 
allowed atmospheric testing using a UAS for operations to take 
place over the Channel Islands, off of the coast of California. 
It was a unique operation that required the flexibility to 
climb and descend randomly between 1,000 feet and 12,000 feet 
as needed for mission success.
    In addition to those certificates, we issued a COA to the 
Coast Guard for a UAS mission that operated from King Salmon, 
Alaska. That mission consisted of flights along the U.S. and 
Russian Maritime Boundary Line, the 100 fathom curve in the 
Bering Sea, and in the High Sea Driftnet area south of the 
Aleutian Island chain. There was also a provision to conduct a 
fly-over the Alaska pipeline. I should also note that to assist 
in preparedness such as severe hurricanes, in May we issued a 
Certificate of Authorization to DOD that specifically allows 
deployment of Global Hawk or Predator UAS to a disaster area. 
Each of these operations require extensive coordination and 
effort with the steadily expanding purposes for which UAS are 
used and the eventual stateside redeployment of large numbers 
of UAS from the theater of war, the FAA expects to issue a 
record number of COAs. In fact, the FAA has issued over 55 COAs 
this year alone, compared with a total of 50 for the two 
previous years combined.
    FAA's work with private industry is slightly different. 
Companies must obtain an airworthiness certificate by 
demonstrating that their aircraft can operate safely within an 
assigned flight test area and cause no harm to the public. This 
is documented by the applicant in what we call a program 
letter. After detailed analysis and onsite review by FAA 
experts and if operating limitations are worked out, FAA will 
accept the application for an experimental and airworthiness 
certificate. So far we have received 14 program letters for UAS 
ranging from 39 to over 10,000 pounds and we have issued two 
experimental airworthiness certificates, one for General 
Atomics' Altair, and one for Bell-Textron's Eagle Eye. We 
expect to issue at least two more experimental certificates 
this year.
    The COA and Experimental Airworthiness Certificate 
processes are designed to allow a sufficiently restricted 
operation to ensure a safe environment while allowing for 
research and development until such time as pertinent standards 
are developed. They allow the FAA, other government agencies 
and private industry to gather valuable data about a largely 
unknown field of aviation. The development of standards is 
crucial to moving forward with UAS integration in the NAS. FAA 
has tasked the RTCA with the development of a Minimum 
Operational Performance Standard for sense and avoid, and 
command and control and communication. These standards will 
allow manufacturers to begin to build certifiable avionics for 
the U.S. and expect that they will take at least three to 4 
years to develop. Currently there is no recognized technology 
solution that could make these aircraft capable of meeting 
regulatory requirements for see and avoid, command and control.
    Further, some unmanned aircraft will likely never receive 
unrestricted access to the NAS due to the limited amount of 
avionics it can carry because of weight such as transponders 
that can be installed in a vehicle itself weighing just a few 
ounces. Likewise, the performance difference with surrounding 
air traffic can present challenges. Some UASs operate an 
airspace used primarily by jet aircraft that can fly at more 
than twice their speed, thus complicating the control of the 
airspace. FAA is fully cognizant that UASs are becoming more 
and more important to more and more Government agencies and 
private industry. The full extent of how they can be used and 
what benefits they can provide are still being explored. Over 
the next several years when RTCA has provided recommended 
standards to the FAA, we will be in a position to provide more 
exact certification and operational requirements to UAS 
operators.
    As the technology gap closes, we expect some UASs will be 
shown to be safer and have more access to the NAS.
    The future of avionics and air traffic control contemplates 
aircraft communicating directly with one another to share 
information to maximize the efficiency of the airspace. This 
certainly could include some models of UAS. Just as there is a 
broad range of UASs, there will be a broad range of ways to 
safely provide them access to the NAS.
    Our commitment is to make sure that when they operate in 
the NAS, they do so with no degradation of system safety.
    Mr. Chairman, in our history, FAA and its predecessor 
agencies have successfully transitioned many new and 
revolutionary aircraft types and systems into the NAS. FAA is 
prepared to meet the challenges that UAS present. We will 
continue to work closely with our partners in Government, 
industry and Congress, to ensure that the national airspace 
system has the ability to take maximum advantage of the unique 
capabilities of unmanned aircraft.
    This concludes my prepared remarks, and I'll be happy to 
answer any questions.
    [The prepared statement of Mr. Sabatini follows:]

   Prepared Statement of Nick Sabatini, Associate Administrator for 
         Aviation Safety, Federal Aviation Administration (FAA)
    Chairman Stevens, Co-Chairman Inouye, members of the Committee. I 
am pleased to appear before you today to discuss a subject that serves 
to remind us that the future is now. The development and use of 
unmanned aircraft systems (UAS) is the next great step forward in the 
evolution of aviation. As it has throughout its history, FAA is 
prepared to work with other government agencies and industry to ensure 
that these aircraft are both safe to operate and are operated safely. 
The extremely broad range of UAS makes their successful integration 
into the national airspace system (NAS) a challenge, but certainly one 
worth meeting. To meet this vital need, the FAA has established an 
Unmanned Aircraft Program Office which has the expressed purpose of 
ensuring a safe integration of UAS into the NAS.
    At the outset, you must understand that UAS cannot be described as 
a single type of aircraft. UAS can be vehicles that range from a 12-
ounce hand-launched model to the size of a 737 aircraft. They also 
encompass a broad span of altitude and endurance capabilities. 
Obviously, the size of the UAS impacts the complexity of its system 
design and capability. Therefore, each different type of UAS has to be 
evaluated separately, with each aircraft's unique characteristics being 
considered before its integration into the NAS can be accomplished. FAA 
is currently working with both other government agencies and private 
industry on the development and use of UAS.
    Today's hearing is another indicator that the number of government 
agencies wanting to explore the use of UAS in support of their mandate 
is on the rise. In addition to the Departments of Defense (DOD) and 
Homeland Security (DHS), the Department of the Interior (DOI), the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Aeronautics and Space Administration (NASA) and state and local 
governments are all interested in increasing their use of UAS for a 
range of very different purposes. Any aircraft operated by government 
agencies in the NAS, including a UAS, is considered a public aircraft 
operation and the oversight and certification of that aircraft is the 
responsibility of the relevant Federal agency. These public operations 
are, however, required to be in compliance with certain Federal 
aviation regulations administered by the FAA, especially those that 
ensure that the operation of these aircraft does not compromise the 
safety of the NAS. FAA's current role is to ensure that UAS do no harm 
to other operators in the NAS and, to the maximum extent possible, the 
public on the ground.
    In working with government agencies, the FAA issues a Certificate 
of Authorization (COA) that permits the agency to operate a particular 
UAS for a particular purpose in a particular area. In other words, FAA 
works with the agency to develop conditions and limitations for UAS 
operations to ensure they do not jeopardize the safety of other 
aviation operations. The objective is to issue a COA with terms that 
ensure an equivalent level of safety as manned aircraft. Usually, this 
entails making sure that the UAS does not operate in a populated area 
and that the aircraft is observed, either by someone in a manned 
aircraft or someone on the ground. In the interest of national security 
the FAA worked with DHS to facilitate UAS operations along the Arizona/
New Mexico border with Mexico. In order to permit such operations, the 
airspace was segregated to ensure system safety so these UAS flights 
can operate without an observer being physically present to observe the 
operation. In addition, the FAA worked with NOAA in 2005 to approve a 
COA that allowed atmospheric testing using a UAS to take place over the 
Channel Islands, off of the coast of California. It was a unique 
operation that required the flexibility to climb and descend randomly 
between 1,000 feet and 12,000 feet as needed for mission success. In 
June 2004, FAA issued a COA to the United States Coast Guard for a UAS 
mission that operated from King Salmon, AK. This mission consisted of 
flights along the United States and Russia Maritime Boundary Line, the 
100-fathom curve in the Bering Sea, and in the High Sea Driftnet Area 
south of the Aleutian Island chain. There was also a provision to 
conduct a fly-over of the Alaska pipeline. Each of these operations 
required extensive coordination and effort. With the steadily expanding 
purposes for which UAS are used and the eventual stateside redeployment 
of large numbers of UAS from the theater of war, the FAA expects to 
issue a record number of COAs. In fact, the FAA has issued over 55 COAs 
this year alone, compared with a total of 50 for the two previous years 
combined.
    FAA's work with private industry is slightly different. Companies 
must obtain an airworthiness certificate by demonstrating that their 
aircraft can operate safely within an assigned flight test area and 
cause no harm to the public. They must be able to describe their 
unmanned aircraft system, along with how and where they intend to fly. 
This is documented by the applicant in what we call a program letter. 
An FAA team of subject matter experts reviews the program letter and, 
if the project is feasible, performs an on-site review of the ground 
system and unmanned aircraft, if available. If the results of the on-
site review are acceptable, there are negotiations on operating 
limitations. After the necessary limitations are accepted, FAA will 
accept an application for an Experimental Airworthiness Certificate 
which is ultimately issued by the local FAA Manufacturing Inspection 
District Office. The certificate specifies the operating restrictions 
applicable to that aircraft. We have received 14 program letters for 
UAS ranging from 39 to over 10,000 pounds. We have issued two 
experimental certificates, one for General Atomics' Altair, and one for 
Bell-Textron's Eagle Eye. We expect to issue at least two more 
experimental certificates this year.
    Each UAS FAA considers, whether it be developed by government or 
industry, must have numerous fail-safes for loss of link and system 
failures. Information must be provided to FAA that clearly establishes 
that the risk of injury to persons on the ground is highly unlikely in 
the event of failures or loss of link. Like everything else having to 
do with UAS, the methods that link the aircraft with ground control can 
be as simple as frequency line of sight or as complex as multiple 
ground and satellite paths making up a functional connection. If the 
link is lost, it means the aircraft is no longer flying under control 
of the pilot. Because FAA recognizes the seriousness of this situation, 
we are predominantly limiting UAS operations to unpopulated areas. 
Should loss of link occur, the pilot must immediately alert air traffic 
control and inform the controllers of the loss of control link. 
Information about what the aircraft is programmed to do and when it is 
programmed to do it is pre-coordinated with the affected air traffic 
control facilities in advance of the flight so that FAA can take the 
appropriate actions to mitigate the situation and preserve safety.
    The COA and Experimental Airworthiness Certificate processes are 
designed to allow a sufficiently restricted operation to ensure a safe 
environment, while allowing for research and development until such 
time as pertinent standards are developed. They also allow the FAA, 
other government agencies, and private industry to gather valuable data 
about a largely unknown field of aviation. The development of standards 
is crucial to moving forward with UAS integration in the NAS. FAA has 
tasked the Radio Technical Commission for Aeronautics (RTCA), an 
industry-led Federal advisory committee to FAA, with the development of 
a Minimum Operational Performance Standard (MOPS) for sense and avoid, 
and command, control and communication. These standards will allow 
manufacturers to begin to build certifiable avionics for UAS. It is 
expected that the MOPS for avionics will take at least three to four 
years to develop. Until there are set standards and aircraft meet them, 
UAS will continue to have appropriate restrictions imposed. In 
addition, the FAA is working closely with DOD and DHS to collaborate on 
the appropriate approach to certification standards.
    Because of the extraordinarily broad range of unmanned aircraft 
types and performance, the challenges of integrating them safely into 
the NAS continue to evolve. Urgent future ground surveillance needs 
must be balanced with ongoing air transportation operations. The 
certification and operational issues described herein highlight the 
fact that there is a missing link in terms of technology today that 
prevents these aircraft from getting unrestricted access to the NAS. 
Currently there is no recognized technology solution that could make 
these aircraft capable of meeting regulatory requirements for see and 
avoid, and command and control. Further, some unmanned aircraft will 
likely never receive unrestricted access to the NAS due to the limited 
amount of avionics it can carry because of weight, such as 
transponders, that can be installed in a vehicle itself weighing just a 
few ounces. Likewise, the performance difference with surrounding air 
traffic can present challenges. Some UAS operate in airspace used 
primarily by jet aircraft that can fly at twice their speed, thus 
complicating the control of the airspace.
    FAA is fully cognizant that UAS are becoming more and more 
important to more and more government agencies and private industry. 
The full extent of how they can be used and what benefits they can 
provide are still being explored. Over the next several years, when 
RTCA has provided recommended standards to the FAA, we will be in a 
position to provide more exact certification and operational 
requirements to UAS operators. As the technology gap closes, we expect 
some UAS will be shown to be safer and have more access to the NAS. The 
future of avionics and air traffic control contemplates aircraft 
communicating directly with one another to share flight information to 
maximize the efficiency of the airspace. This could certainly include 
some models of UAS. Just as there is a broad range of UAS, there will 
be a broad range of ways to safely provide them access to the NAS. Our 
commitment is to make sure that when they operate in the NAS, they do 
so with no degradation of system safety.
    The FAA has a long-standing history of working with the State of 
Alaska in the development of new technologies. A recent example of this 
is the Capstone program for which Alaska has been the proving ground of 
the Automatic Dependent Surveillance-Broadcast technology or ADS-B, a 
technology I know the Administrator spoke about at the recent field 
hearing in Alaska.
    The FAA has other ongoing initiatives in Alaska. Starting in 
September 2005, the FAA tasked the University of Alaska, Anchorage and 
Fairbanks campuses, with participating in a research and development 
program through the FAA's Air Transportation Center of Excellence for 
General Aviation Research (CGAR). The CGAR is a consortium of academia, 
industry, and government that is ready to address the critical needs of 
general aviation through synergistic relationships. The University of 
Alaska has been teamed up with two other institutes to evaluate detect, 
sense and avoid systems, primarily through an extensive library search, 
that have a benefit to aviation safety. This project will build on the 
work already completed by University of Alaska Fairbanks (UAF) at the 
Poker Flats range located near Fairbanks, Alaska.
    Another project assigned to the CGAR team involved with the 
University of Alaska is looking at the potential design and 
certification criteria of UAS with an emphasis on size, speed and 
impact energy limits as it relates to the safety of manned aircraft and 
persons and property on the ground. This project will again, build on 
the work already completed by UAF at the Institute of Northern 
Engineering and the Transportation Research Center. The University of 
Alaska already has airspace experience gained from UAS work conducted 
to/from, and within Alaska and will be working on other UAS projects in 
conjunction with this one.
    In our history, FAA and its predecessor agencies have successfully 
transitioned many new and revolutionary aircraft types and systems into 
the NAS. Beginning in 1937, we completed the U.S. certification for the 
first large scale production airliner (the DC-3), then went on to 
certify the first pressurized airliner (the Boeing B-307 in 1940), 
civil helicopter (Bell 47 in 1946), turboprop (Vickers Viscount in 
1955), turbojet (Boeing 707 in 1958), as well as the supersonic 
transport (Concorde in 1979), and the advance wide-body jets of today 
(Boeing 747-400 in 1989). It seems appropriate that, as we begin a new 
century and new millennium, advances in aviation technology present us 
with another addition to the fleet with great potential--unmanned 
aircraft.
    Mr. Chairman, FAA is prepared to meet the challenge. We will 
continue to work closely with our partners in government, industry and 
Congress to ensure that the National Airspace System has the ability to 
take maximum advantage of the unique capabilities of unmanned aircraft.
    This concludes my prepared remarks. I will be happy to answer your 
questions at this time.

    The Chairman. Thank you very much. Our next witness is Rear 
Admiral Wayne Justice, Assistant Commandant for Response in the 
Coast Guard.
    Admiral.

 STATEMENT OF REAR ADMIRAL WAYNE JUSTICE, ASSISTANT COMMANDANT 
                 FOR RESPONSE, U.S. COAST GUARD

    Admiral Justice. Good afternoon Chairman, Co-Chairman, 
Inouye. It is my honor to be here today to discuss the future 
of Unmanned Aircraft Systems in the Coast Guard in protecting 
our maritime borders and ensuring our national security.
    This an important issue because of the potential 
enhancements UASs bring to securing our maritime borders.
    The Coast Guard is actively working with the FAA, 
Department of Defense, and CBP Air Marine Operations to 
implement viable plans in this emerging technology. In concert 
with a layered security construct attending to diverse and 
distant missions such as enforcing the maritime boundary line 
in the Bering Sea, restricting high seas drift net fishing 
throughout the Pacific or ensuring compliance for new 
regulations in the Northern Hawaiian monument is paramount. The 
current Coast Guard legacy manned maritime patrol aircraft 
fleet falls short of providing the targeted end state of 61,600 
maritime patrolled aircraft hours per year. Under our Revised 
Deepwater Implementation Plan, the Coast Guard expects to close 
the gap with new Deepwater MPA platforms by the year 2016. 
Land-based UAS platforms are a key component of the MPA gap 
mitigation strategy.
    The post-9/11 Deepwater Implementation Plan calls for the 
procurement of 45 VUAVs and the purchase of High Altitude 
Endurance Unmanned Aerial Vehicle sensor data utilizing land 
based, long endurance UASs.
    The Eagle Eye VUAV is being developed to deploy on both 
National Security Cutters and Offshore Patrol Vessels. The 
System Assembly and Demonstration phase will begin soon, with 
the first flight planned for December 2008 and an Initial 
Operating Capability in 2012. The high altitude UAS is a land-
based, wide area surveillance platform with a long endurance 
capability and is scheduled for initial implementation in 2016. 
The Coast Guard is also exploring the option of performing this 
mission with more versatile and less expensive alternatives 
such as the Medium Altitude Long Endurance platforms.
    As previously mentioned the Coast Guard Research and 
Development Center led two major Alaskan concept demonstrations 
in November 2003 and July 2004. The 2003 Predator A evaluation 
provided the Coast Guard important information on the logistics 
of deploying UASs to remote areas and the information about the 
challenges of operating a UAS in adverse weather conditions.
    July 2004 Altair concept demonstration focused on 
operations using Beyond-Line-of-Sight communications to control 
the aircraft and receive sensor data. The Altair aircraft was 
remotely piloted from a ground control station in San Diego 
during its transit along the West Coast to Alaska. Similar to 
the first test, weather proved to be the biggest challenge. 
Unfortunately, 10 of the 17 planned flights were canceled due 
to forecasted icing, low cloud ceilings and poor visibility on 
scene and at the airport. Less than optimal satellite coverage 
at the northern latitudes provided questionable command and 
control reliability.
    There are three areas of concern the Coast Guard has 
relating to UAS flight safety: crew qualification, system 
airworthiness, and flight rules, especially collision and 
avoidance. Until new UAS regulations are adopted, the Coast 
Guard will utilize the FAA's Certificate of Waiver and 
Authorization, COAs, process to perform many testing 
evaluations or operations.
    This process allows for limited scheduling of Coast Guard 
UAS operations in the national and international airspace.
    That said the Coast Guard remains eager to work closely 
with out interagency partners to operationally test and 
evaluate UAS technologies in the maritime environment. While 
UASs are not suitable for all missions and have many distinct 
challenges, they do provide potentially effective and 
economical capabilities that could be force multipliers for our 
maritime domain surveillance and detection missions. The Coast 
Guard looks forward to building the expertise required to 
safely operate the UASs and to realize the potential as a wide 
area surveillance tool in the maritime environment.
    Sir, thank you for the opportunity to appear before the 
Committee today, and I am happy to address any questions you 
may have.
    [The prepared statement of Admiral Justice follows]:

           Prepared Statement of Rear Admiral Wayne Justice, 
          Assistant Commandant for Response, U.S. Coast Guard
    Good afternoon Mr. Chairman and distinguished members of the 
Committee. It is my pleasure to be here today to discuss the future of 
Unmanned Aircraft Systems (UAS) in protecting our maritime borders and 
ensuring our national security.
    This is an important issue because of the potential enhancements 
that UASs bring to securing our maritime borders. The Coast Guard is 
keenly aware of the safety concerns surrounding UAS programs and is 
working with the Federal Aviation Administration (FAA), the Department 
of Defense (DOD), and Customs and Border Protection (CBP) Air and 
Marine to implement viable plans for this emerging technology.
Cutter-based Vertical Unmanned Aerial Vehicle (VUAV) and High Altitude 
        Endurance Unmanned Aerial Vehicle (HAEUAV)
    The post-9/11 Deepwater implementation plan calls for the 
procurement of 45 VUAVs and the purchase of High Altitude Endurance 
Unmanned Aerial Vehicle sensor data utilizing land based, long 
endurance UASs.
    The Eagle Eye VUAV is being developed to deploy on both National 
Security Cutters and Offshore Patrol Cutters. The project is currently 
in the System Design and Development phase and will shortly begin the 
System Assembly and Demonstration phase, with the first flight planned 
for December 2008. Funding availability has pushed the delivery of the 
Initial Operating Capability (IOC) for the VUAV to approximately 2012. 
The VUAV will be a transformational tactical asset for the Coast Guard 
and will expand cutters' surveillance capabilities for the detection, 
classification, and identification of targets to a distance of 100 
miles.
    The high altitude UAS are a land based, wide area surveillance 
platforms with a long endurance/dwell time capability. The high 
altitude UAS are scheduled for initial implementation in 2016. The 
Coast Guard is also exploring the feasibility of performing this 
mission with more versatile and less expensive alternatives, such as 
Medium Altitude Long Endurance (MALE) platforms.
Using Unmanned Aircraft Systems to Help Close the Maritime Patrol 
        Aircraft Gap
    Figure 1 shows the existing Maritime Patrol Aircraft (MPA) gap. The 
current Coast Guard legacy manned MPA fleet falls short of providing 
the targeted end state of 61,600 MPA flight hours per year. Under the 
1998 Revised Deepwater Implementation Plan, the Coast Guard expects to 
close the gap with new Deepwater MPA platforms by 2016. Note that UAS 
is a key component of the MPA gap mitigation strategy. With the 
capability to fly for more than 30 hours without refueling, these land 
based UASs have a significant on-scene persistence advantage over 
manned aircraft, resulting in a significant improvement of Coast Guard 
maritime domain awareness. However, I must emphasize the importance of 
proper sensorization, lest a high performance aircraft actually fail to 
meet mission requirements. Sensorization includes outfitting the 
aircraft with equipment to detect targets of interest (i.e. sensitive 
marine radars, electro optical infrared to see at night).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Operational Exercises in Alaska
    The Coast Guard Research and Development Center led two major tests 
of a medium altitude long endurance UAS in Alaska. The first was a 
Predator A concept demonstration in November 2003, and the second was 
an Altair (Predator B variant) evaluation in July 2004.
    The November 2003 test of the Predator A was the first-ever flight 
of a medium altitude long endurance UAS in the harsh Alaskan 
environment. The evaluation provided the Coast Guard with important 
information on the logistics of deploying UASs to remote areas and 
information about the challenges of operating a UAS in adverse weather 
conditions. Weather conditions including temperature, cloud cover, wind 
and precipitation were important variables during the operational 
tests. (Difficultly starting the vehicle in cold weather, lack of de-
icing capability during periods of forecast icing, and lack of required 
visibility were responsible for the cancellation of four of five 
flights.)
    The July 2004 Altair concept demonstration focused on operations 
within the National Airspace using a Beyond-Line-of-Sight (BLOS) 
communications to control the aircraft and receive sensor data. 
Scheduled missions included flights along the Maritime Boundary Line 
and within the High Seas Drift Net region. The Altair aircraft was 
equipped with wide-band and BLOS satellite communications equipment, a 
maritime radar, and vessel Automatic Identification System (AIS) 
interrogator.
    The Coast Guard was able to remotely pilot the Altair vehicle from 
a ground control station in San Diego, CA during its transit along the 
West Coast to Alaska, demonstrating BLOS capability. However, satellite 
coverage in the northern latitudes is limited and, therefore, results 
in a very low ``look angle'' with the platform, preventing reliable 
BLOS command and control. As a result, the aircraft had to be flown at 
higher altitudes and above the cloud cover, which severely limited 
sensor capabilities during major portions of the test period. The 
Altair used AIS to provide intelligence about commercial vessels 
approximately 280 miles from the aircraft and was successfully used as 
a communications link to Coast Guard cutters within line of sight of 
the vehicle. Airframe sensor integration issues prevented a successful 
operational test of the maritime radar and wide area surveillance 
capability.
    Similar to the first test, weather proved to be the biggest 
challenge. Ten of seventeen flights were cancelled due to forecasted 
icing, low cloud ceilings and poor visibility on scene and at the 
airport. The Altair never made it to either the Maritime Boundary Line 
or the High Seas Drift Net area. In fact, the Altair was not able to 
make a 360-degree turn anywhere within the Alaskan region due to the 
possibility of losing communications with the satellite.
Challenges Facing the Operational Employment of UAS in the Maritime 
        Domain
    The FAA and International Civil Aeronautical Organization (ICAO) 
are charged with maintaining safe and efficient aeronautical airspace. 
There are three areas the Coast Guard has concern relating to UAS 
flight safety: crew qualification, system airworthiness, and flight 
rules--especially collision avoidance. To gain access to national and 
international airspace we must and will work with FAA and ICAO to 
ensure the above areas of concern are adequately addressed so there is 
no detriment to civil aviation or public safety. The Coast Guard will 
utilize the FAA's Certificate of Waiver and Authorization (COA) process 
for domestic flight and ``with due regard for civil aviation'' over 
international waters. This process allows for limited scheduling of 
Coast Guard UAS operations in domestic airspace. We will continue to 
work closely with the FAA to overcome these challenges.
Coast Guard Outreach Regarding the Design and Operation of UAS
    The Coast Guard continues to work with CBP, FAA and DOD on airspace 
access issues. We participated in CBP's source selection of the Secure 
Border Initiative UAS and are actively working with the Joint UAS 
Center of Excellence, the U.S. Marine Corps and Navy UAS working 
groups, DOD's Joint ``Sense and Avoid'' and airspace integration 
working group, and two FAA policy recommendation organizations.
Conclusion
    In conclusion, I re-emphasize three main points:

  <bullet> The Coast Guard remains eager to work closely with our 
        interagency partners to operationally test and evaluate UAS 
        technologies in the maritime environment. While UASs are not 
        suitable for all mission types and may not replace manned 
        aircraft in many of our current missions, they do provide 
        potentially effective and economical capabilities that could 
        become force multipliers for our maritime domain surveillance 
        and detection missions. The Coast Guard has very little 
        experience operating UAS but remains interested in realizing 
        their potential as a long endurance wide area surveillance 
        aircraft in the maritime environment.

  <bullet> The Coast Guard envisions using a maritime sensor equipped, 
        land based UAS to help mitigate the Maritime Patrol Aircraft 
        (MPA) gap. The Coast Guard will continue to actively look for 
        opportunities to use UASs to help close the existing MPA gap.

  <bullet> Land based UAS operations have many distinct challenges. 
        Several of those challenges were experienced in the Alaska 
        maritime environment including degraded UAS satellite 
        communications and sensor effectiveness due to weather 
        conditions, lack of alternate landing sites and the limited 
        number of remote/alternate runways that can accommodate UASs. 
        The Coast Guard looks forward to additional opportunities to 
        conduct further tests and evaluations of UAS technologies to 
        accomplish wide area surveillance in the maritime environment.

    Thank you for the opportunity to appear before the Committee today. 
I am happy to address any questions you may have.

    The Chairman. Thank you very much. We will have to go vote 
and be back as quickly as we can.
    [Recess]
    The Chairman. I am sure the Co-Chairman is on his way, but 
I also am sure he wouldn't mind if I start and ask some 
questions. First, let me ask all of you a question. Without any 
question, we are dealing with a system that will not only be 
unmanned in terms of crew, but there also would be no people on 
board right? We understand that this is not dealing with any 
concept of a new system that would be unmanned as far as the 
crew situation is concerned, but wouldn't carry any passengers 
at any time? With that, Mr. Sabatini, your regulations would 
ensure that, right?
    Mr. Sabatini. Yes, sir, absolutely.
    The Chairman. Mr. Admiral Lautenbacher, we discussed the 
experiment in Alaska and you mentioned in your statement, one 
of the problems developed was the lack of deicing equipment on 
these birds. Has anyone looked into the problem yet in terms 
that the deicing equipment might be necessary to operate these 
things in all weather conditions?
    Admiral Lautenbacher. I'm not aware that anyone looked 
specifically into it in the tests we've done, but I am 
confident that could be added into it. We've looked at 
operating out of Alaska bases, and we think that the issues 
that have come up can be dealt with basically. So I don't see 
any reason why you can't deal with a problem like that as you 
do with a manned aircraft in a way that could allow us to 
operate, and certainly if we operated out of Eielson--for 
instance, we could complete 90 percent of our mission that we 
need just today with the equipment.
    The Chairman. Did your conference, Mr. Madden, look into 
that problem?
    Mr. Madden. We raised the issue of under what conditions, 
what different types of UAS platforms could work, but said we 
have to go beyond raising the issue and actually test things, 
so there are large seasons of the year in which icing is not a 
problem, but the participants at our Alaskan workshop did go 
into it knowing that there could be issues with icing and that 
would be one of the early things we would have to test.
    The Chairman. Well, let me ask you Mr. Sabatini, I had a 
conference this last recess following the 4th of July in Alaska 
with people who are concerned with the aviation safety. We have 
been very much involved with aviation safety, and I think we 
have accomplished a great deal in a very short period of time, 
but they mention there is no consideration being given to 
warning systems to prevent these unmanned aircraft from coming 
into the airspace of civil aviation that is flying on an 
approved flight plan, general or commercial. Have you all 
looked into that now? Are we going to some kind of warning 
device on this so the collision avoidance systems of small 
aircraft, or the commercial aircraft would work?
    Mr. Sabatini. Well, Mr. Chairman that is a very complex 
subject. I would tell you that there is not today a warning 
system we've required of what those aircraft that have been 
approved to operate either under experimental certificate or 
either under a public use certificate of authorization because 
of what was asked to be done, however, there certainly is 
technology such as TCAS that can be put on board those 
aircrafts that would alert other manned aircraft that there is 
another intruder so to speak in that airspace.
    The Chairman. Well, I've flown TCAS. I'm not sure it will 
pick up something that small will it? Do you know?
    Mr. Sabatini. Well, I would say that as I mentioned in my 
testimony, Mr. Chairman, the limitation is on a piece of 
equipment like what we have here, the Raven, probably the 
weight of the TCAS itself is greater than the weight of this 
aircraft, and therefore, some aircraft such as these could not 
possibly carry the kind of TCAS equipment if we consider that 
warning to others that would make it feasible. This just simply 
could not be done.
    Mr. Madden. We addressed that both in the workshop and in 
some conversations afterwards. We would see a number of 
applications where there would be listing temporary flight 
restrictions for civil authorities such as around fires or 
volcanoes, so that operating inside of those temporary flight 
restrictions would minimize or eliminate that conflict.
    The Chairman. What do you think Admiral Justice?
    Admiral Justice. Sir, I would add two points. We know that 
there is one industry, one builder, who is looking and on the 
larger predator-type aircraft, they are looking into deicing. 
So that is under development. We know that for a fact. And then 
as well, on a smaller, in the Coast Guard, what we are looking 
to purchase for our ships is larger than that. It is more a 
medium-sized and again, from a collision avoidance perspective, 
we will be--that will be developed. That is part of our--we are 
kind of pacing ourselves for delivery of those vehicles because 
that technology is being developed. But it will all come 
together and it will have that to meet Mr. Sabatini's 
requirements here.
    The Chairman. Just this last weekend, I saw two eagles that 
were bigger than that plane. TCAS would not be able to tell it 
was there if it was that small would it? I am saying, don't you 
think you should require putting something on this one that 
will emit a signal and it would be picked up?
    Mr. Sabatini. That has been a challenge, Mr. Chairman. The 
technology that would be available to allow something like this 
Raven to be sensed by other aircraft, and that technology is 
not available for a small device like this one. It could 
potentially be available for a larger aircraft that can carry 
that kind of weight and cause itself to be sensed by other 
manned aircraft so that in that sense, that's a warning to 
others that there is another aircraft in their presence, and 
therefore, a TCAS type of arrangement could cause a warning to 
other manned aircraft. However, in unmanned aircraft, that 
technology does not exist today to allow the detection, the 
sensing and avoiding and the maneuvering that needs to be done 
to avoid other aircraft. And for that reason, we work with 
either the Government agency or the applicant as a civilian to 
establish the parameters within which they will operate, the 
restrictions that will be imposed upon those operations.
    The Chairman. Admiral Lautenbacher, I think the staff told 
me about the use of one of these in terms of global climate 
change monitoring. It would drop sensors along the ice, or 
along either onshore or offshore, and pick up some measurements 
later. Now, what size--if that's true, what size UAV would be 
used for that?
    Admiral Lautenbacher. This would be a much larger UAV.
    The Chairman. Predator size?
    Admiral Lautenbacher. It could be Predator size, it could 
be a little smaller, but generally a Predator that could go on 
a long mission and carry dropwindsondes, or even carry smaller 
UAVs with it and launch them at a particular point. So there is 
a variety of things that could be done.
    The Chairman. Well let me ask you this. Have any of your 
agencies studied to determine what changes in existing law 
would be required to legalize the use of these concepts and put 
the restrictions on them, or give them the authority to put the 
restrictions on them that would be necessary in the interest of 
safety?
    It would probably be you to start with, Mr. Sabatini.
    Mr. Sabatini. Yes, Mr. Chairman, we have regulations today 
that address operation in the NAS. Unmanned aircraft cannot 
meet those regulations today. The challenge that we face and we 
are working through the RTCA which is a Federal Advisory 
Committee that has brought in industry to participate in 
Special Committee 203 to address the issue of detect, sense, 
avoid, command and control. So they are in the process of 
establishing what those standards might be so that industry can 
then begin to build avionics that are capable of providing what 
unmanned aircraft cannot do today. And that is operating within 
the NAS and be able to comply with FAR Part 91, the general 
operating rules in the airspace.
    The Chairman. One of the groups I was with was float plane 
pilots. They point out that very few of those planes have any 
TCAS equipment on them. They are flying normally around 1,000 
feet or below, and they believe that if we are going to 
authorize the use of these in Alaska, that we ought to have 
some zones like we have for military zones where--or at least 
there ought to be some advance notice to pilots before, 
considerably before they are used. Now, have any of you looked 
into those problems of the interference with the general 
aviation, particularly the aviation that is related to just 
local use? I mean, can we develop something for instance, let's 
say you can't fly these things within 20 miles of a 
municipality or something like that?
    Mr. Sabatini. Well, we already have, so let me start by 
saying those devices cannot access the airspace today unless 
they receive approval.
    The Chairman. But they are. You pre-approved them right?
    Mr. Sabatini. They have to be approved by the FAA and when 
they are finally approved by the FAA, they are allowed to do so 
under very controlled circumstances. There will be 
restrictions.
    For example, the one that operates along the Arizona/New 
Mexico Border. When they are authorized to operate, there are 
hours that are published that they do operate when they are 
going to access that airspace which I believe starts at about 
12,000 feet to about 15,000 feet. From their base of operation, 
to gaining access and entry into that airspace is a specific 
period of time. It is announced by way of NOTAMs to airmen that 
this aircraft will be operating during these times and will be 
proceeding along this track to access that airspace, and once 
it's in that airspace, it's published to the community, the 
aviation community, they are not permitted in that airspace 
while it is ``hot'' so-to-speak.
    The Chairman. That is sort of self-defeating. That tells 
people who are trying to watch those, going to be there----
    Mr. Sabatini. We are not the ones to determine that, sir, 
we are the ones that allow safe operations by putting in the 
kinds of restrictions to permit those operations.
    The Chairman. Well, I'm told that you are looking into FAA; 
FAA is looking into it for use disaster areas such as Katrina 
and other such disasters. Is that right?
    Do you have any special regulations yet for that?
    Mr. Sabatini. Well the regulations continue to be the same; 
however, we have already issued a Certificate of Authorization 
to DOD in anticipation of any potential new Katrina-type 
hurricane that would position them to be ready to operate 
within the confines of what has been approved for them to do.
    The Chairman. I am interested in the concept of adding 
these systems to existing systems such as weather monitoring, 
volcano monitoring, fire fighting monitoring.
    Is that feasible, Mr. Madden?
    Mr. Madden. Yes, sir, it is and I think that while these 
are aircraft, there are ways in which we could minimize or 
eliminate the conflict with general aviation. I mean, I earned 
my private pilot license in Alaska and every hour I've flown as 
pilot in command is in Alaska. There could be something like 
not just having a corridor for these, but to have a cylinder or 
a cone for them to get at altitudes that operate above general 
aviation. That would put a great challenge for the technology 
for sensing to be done at say at flight levels at 18,000 feet 
or so, and where it's positive control. It would have more 
applicability to the larger unmanned aerial systems than the 
small ones like this. But it's fairly well documented where 
general aviation flies, for what purposes, for what times of 
year and what altitude.
    And having flown in Alaska, I know there are 50,000 bald 
eagles in that state and I am more concerned with hitting an 
eagle than hitting another airplane.
    The Chairman. They are there all right. Mr. Sabatini, how 
do you propose to coordinate these with the air controllers at 
airports that have general applicability?
    Mr. Sabatini. Well the--whether it's an Experimental 
Airworthiness Certificate that is issued, or whether it's a 
certificate of authorization, it's done with complete 
coordination with the air traffic organization, so the 
limitations and the restrictions spell out in great detail the 
operation and who they need to contact almost to the point that 
this is the frequency in which you will contact, the approach 
control, the departure control, etc. It's highly coordinated, 
Mr. Chairman.
    The Chairman. For the two admirals, as you know, we have 
been very interested in the system for the protection of our 
fisheries, particularly along the maritime boundary and to 
protect marine sanctuaries such as you described, Admiral, off 
of Hawaii, but clearly, we had a test as I mentioned, but are 
you still pursuing that idea to have vessels using UAVs? If so, 
can you tell us what you are doing?
    Admiral Lautenbacher. Yes, sir, we have tried and 
experimented and run tests with Predator-size vehicles and 
we've also run tests with a smaller vehicle in the humpback 
sanctuary for looking at marine mammals and endangered species 
and that sort of thing, and we think it's a very promising 
method for the longer times that you can be watching and do it 
remotely. It has a great deal of appeal to us in terms of 
practical way of monitoring fisheries and marine mammals.
    The Chairman. I was recently briefed on the military use of 
UAVs in the war zone and I was very surprised the manpower that 
is necessary to monitor the UAVs. It is actually more to take 
to monitor a manned aircraft. Are you aware of that?
    Admiral Lautenbacher. Yes, sir. I've been out on these 
tests or been involved in the tests, and I would have to say, 
remember we're currently at the front end of the technology in 
learning how to use and control, but yes, you have to have 
pilots that fly the airplanes and consoles and communications 
equipment and communication video links and it's not without 
its technical complexity.
    But I think as all other areas, it's going to get better as 
we try it more.
    The Chairman. Well, it's cost-effective compared to you 
sending a cutter out there isn't it?
    Admiral Lautenbacher. I'll let the Coast Guard answer that.
    Admiral Justice. Sir, I would say its part of the system. 
It's needed. It helps monitor, it helps detect. It may help 
sort at some point. We're not quite there with the sorting 
piece yet. At the end of the day, you know, the apprehension 
and the interdiction piece are going to be by a cutter. But it 
will help us use that cutter smarter. So again, the Coast Guard 
is committed to its technology improvements with them. We will 
work with the team here to use those.
    The Chairman. And what is the timeline for that?
    Admiral Justice. Realistically, we're mirroring, you 
mentioned the three to four year development of the collision 
avoidance system on the, we call it RVUAV, so we have got a 
three to four year window for our--the ones off our cutters 
that will replace a helicopter. It's a three to four year 
window to roll those out. Right now, Coast Guard's plan with 
the big ones is out there. We don't--we're not signed up to use 
them until 2016. With that said, as we see the technology 
improving, we have been part of the test, we understand the 
problems, and we appreciate the problems. If the problems are 
overcome, and we'll help with that. We are definitely ready to 
move.
    We would be ready to move forward earlier in using this 
technology full-time and on our missions.
    The Chairman. All right, are you far enough along to 
approach the UAV manufacturers about equipment you need such as 
deicing equipment and monitoring equipment?
    Admiral Justice. And we have and they are working with us 
on that, yes sir. We're there with that.
    The Chairman. All right, I believe Senator Inouye has been 
held up on the floor, so I'm going to suggest that we keep the 
record open, and he and the staff may submit to you some 
questions on the subject today.
    My last question for you, Mr. Madden, you mention this 
airport that you envision having a UAV servicing station. How 
far along are you in developing that idea?
    Mr. Madden. It's a concept to try to have a place where it 
could integrate flight operations, data acquisition and data 
analysis. It has not gone beyond the concept stage. I have 
talked with the State Department of Transportation about what 
airports could provide this, what space is available and meet 
the power and communications. They are ready and willing and 
able to meet with any agency about site selection. There is 
also a number of private sector owned and operated along the 
pipeline that have said they would agree to be either alternate 
airports, or forward deployed airports as well.
    Mr. Stevens. Well, I appreciate it. If you would let us 
know if you have any suggestions as to changes in existing law 
to facilitate the subject we've discussed, and I appreciate 
also if you would respond to the questions that may be 
submitted to other members of the Committee, particularly the 
Co-Chairman.
    I do thank you for your participation and apologize for the 
Senate schedule holding you here this long is unconscionable 
but unavoidable, so thank you very much.
    Mr. Madden. Thank you, sir.
    [Whereupon, at 4:31 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                      VADM Conrad C. Lautenbacher
    Question 1. Admiral Lautenbacher, what can an unmanned aerial 
system (UAS) base in Hawaii do for the Western Pacific region and how 
can a Hawaii base complement an Alaska UAS base?
    Answer. UAS could be used to collect routine measurements and 
observations from the Pacific region in areas where other observing 
systems, such as satellites, manned planes and buoys are either 
impractical or inadequate. Data collected from UAS could be used for a 
broad range of applications, including climate and weather prediction, 
monitoring of Pacific cyclones, volcanic monitoring, identification of 
marine debris, coral reef mapping, monitoring of coral reef bleaching, 
marine mammal surveys, fisheries enforcement, and monitoring the 
recently dedicated Northwest Hawaiian Islands Marine National Monument.

    Question 2. What uses of UAS are better suited for Hawaii than 
Alaska?
    Answer. Hawaii would be better suited to study the tropical aspects 
of the global weather and climate system, versus Arctic studies from a 
site in Alaska. Data from both regions are needed to better understand 
the current changes in global weather and climate, and to improve 
weather and climate prediction. For example, data from UAS based in 
Hawaii could be collected to improve understanding of Pacific cyclones 
and storms, their formation, evolution and intensity. As described in 
greater detail in testimony, NOAA's Hurricane Research Division (HRD) 
demonstrated the proof of concept for potential UAS applications in 
severe storm environments during September 2005. NOAA used a relatively 
small UAS to obtain and transmit real-time, potentially useful, low 
altitude storm data. While the successful use of manned aircraft has 
been an important tool for understanding hurricanes, detailed 
observations of the near-surface hurricane environment have been 
elusive because of the safety and technical risks associated with these 
low-level manned missions. A follow-on hurricane UAS demonstration over 
the Western Atlantic Ocean and Gulf of Mexico will take place during 
September 2006.

    Question 3. Would UAS be helpful in monitoring and preserving the 
Northwestern Hawaiian Islands? Is this a good technology to keep help 
this area pristine?
    Answer. The Northwest Hawaiian Islands Marine National Monument, 
designated by President Bush on June 15, 2006, encompasses nearly 
140,000 square miles--an area larger than all of our national parks put 
together. As described in our testimony, this monument is one of the 
least accessible of our national treasures and presents ongoing 
challenges to ensure its monitoring, conservation, and protection. UAS 
based in Hawaii could take measurements of the monument and other 
Pacific Island regions that are too remote for most sustained manned 
aircraft observations. NOAA's National Marine Fisheries Service (NMFS) 
currently collects data around these islands using a combination of 
platforms including research vessels, aircraft, satellites and 
individual researchers on the ground. Observations from these platforms 
could be augmented by observations from a UAS once they are calibrated 
into the observing system. UAS have the potential to address a number 
of additional issues in the Pacific including detection of marine 
debris, monitoring coral reef bleaching, and supplementing our national 
climate and weather prediction models.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                       Rear Admiral Wayne Justice
    Question 1. Rear Admiral Justice, the Coast Guard's District 14, 
which includes Hawaii and the Pacific Territories, appears to be having 
difficulty in fulfilling its fishing enforcement mission. Over the past 
five years few, if any, of the suspected illegal incursions of foreign 
fishing vessels within the Western/Central Pacific area of the U.S. 
Exclusive Economic Zone (EEZ) were detected by the Coast Guard and none 
were interdicted by the Coast Guard.
    The Coast Guard has determined that Unmanned Aerial Systems (UASs) 
are ``ideally suited'' for providing fishing enforcement capabilities 
and the agency is currently acquiring UASs through the Deepwater 
program to be used for a number of surveillance missions in the region, 
including efforts to deter and prevent foreign vessel incursions into 
the EEZ.
    Can you tell us how UASs can be used for fishing enforcement and 
how they will help the Coast Guard to improve overall surveillance 
capabilities?
    Answer. The Integrated Deepwater System depends on unmanned aerial 
vehicles to provide airborne organic intelligence, surveillance and 
reconnaissance capability to detect, classify and identify targets of 
interests (including fishing vessels) out to 100 nautical miles from 
the cutter. The use of drone aircraft offers the potential to provide a 
significant amount of air patrol hours for the Coast Guard. With the 
capability to fly for more than 30 hours without refueling, the land 
based UAVs have a significant on-scene persistence advantage over 
manned aircraft, resulting in a significant improvement of Coast Guard 
maritime domain awareness (MDA).

    Question 2. How would Unmanned Aerial Vehicles (UAVs) coordinate 
with ground assets to detect and make contact with foreign fishing or 
other vessels that illegally enter the EEZ?
    Answer. The Deepwater unmanned aerial vehicles will use a surface 
search radar and Electro Optical/ Infra-Red sensors to detect, 
classify, and identify surface contacts (targets of interest). The 
Coast Guard UAV mission commander/pilot will also have the capability 
to communicate directly with targets of interest and additional 
government resources.

    Question 3. What are the strengths and limitations of UASs in the 
surveillance of fishing vessels in the high seas?
    Answer. A High Altitude Endurance Unmanned Aerial Vehicle (HAEUAV) 
is a long endurance wide area surveillance system with a capability to 
fly for more than 30 hours without refueling. These land-based UASs 
have a significant on-scene persistence advantage over manned aircraft, 
resulting in a significant improvement in Coast Guard maritime domain 
awareness capability.
    7Until the Federal Aviation Administration (FAA) adopts new 
regulations governing the operation of UASs, the Coast Guard will 
comply with the FAA Certificate of Waiver or Authorization (COA) 
process to gain access to the National Airspace System (NAS). The COA 
process for a single mission takes 60 days to complete. COAs are very 
restrictive and support a specific mission for a specific period of 
time. UAS operations within the NAS and International Civil 
Aeronautical Organization (ICAO) regulated air navigation systems are 
currently limited in their employment capability due to the extensive 
and time consuming COA process.
    There are three areas the Coast Guard has concerns relating to UAS 
flight safety: crew qualification, system airworthiness, and flight 
rules--especially collision avoidance. The Coast Guard realized during 
the 2003 and 2004 concept demonstrations in Alaska that UASs have 
limited utility in poor weather conditions, as the sensors are unable 
to identify vessels in low visibility. The Coast Guard also learned 
that Beyond Line of Sight (BLOS) satellite communications are limited, 
and in some cases non-existent, in the northern latitudes.
    As UAS technology advances, solutions will be developed to address 
both weather and technological challenges, such as sense avoidance and 
satellite communications reliability. Small UASs, as well as the 
HAEUAVs, will extend the operational commander's eyes and in effect 
extend his operational presence on the high seas.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Nick Sabatini
    Question 1. Mr. Sabatini, years of military and government 
applications suggest significant opportunities for the use of Unmanned 
Aerial Systems (UASs) in the commercial sector, but there are obvious 
reasons for caution, particularly related to the safety and security of 
the National Airspace System (NAS). You have indicated that the Federal 
Aviation Administration (FAA) has only currently issued two 
experimental certificates to private industry.
    Answer. The FAA has issued 3 Experimental Airworthiness 
Certificates in the last year. While the initial interest with industry 
seemed to be high at the outset of Unmanned Aircraft System (UAS) 
activity, it has dropped off considerably. At this time, the FAA is in 
receipt of only 2 additional program letters, which should lead to the 
further issuance of additional Experimental Airworthiness Certificates 
after formal review.
    The government use of UASs has generated significant interest by 
industry to pursue the potential for this new technology. However, the 
current state of development of the technology is in the initial stages 
and requires much more maturity before it can be seamlessly integrated 
into the National Airspace System (NAS). Government partnering with 
industry can collaboratively develop the path to facilitate this 
integration with no negative impact to system safety.

    Question 2. Does the FAA have an estimated timeline for when it 
will move beyond the experimental stage of private UASs operations?
    Answer. The FAA is developing a roadmap for the integration of UASs 
into the National Airspace System (NAS). This roadmap will define all 
of the activities, policy development, standards development, modeling 
and simulation, and resources necessary to have in place before UASs 
can move beyond the experimental process. The FAA projects it will take 
approximately 5 years to complete the roadmap objectives. The roadmap 
is expected to be finalized by March of 2007.

    Question 3. Given the on-going effort to modernize the NAS and 
permit a tripling of capacity by 2025, is the FAA contemplating the 
potential impact of UAS flights on the system?
    Answer. The FAA is working closely with the Joint Planning and 
Development Office (JPDO) to ensure that all known potential impacts to 
future NAS architecture and current infrastructure related to UAS are 
identified. As JPDO is a government and industry forum, industry has an 
opportunity to discuss commercial applications that may impact the NAS 
of the future. Given the relative newness of this technology and a 
corresponding lack of experience with it in the aviation industry, it 
is very difficult to predict the potential impact with any degree of 
certainty. Much will depend on specific activities, standards and 
policies, yet to be developed, that will ensure UASs have an equivalent 
level of safety to aircraft already operating in the NAS. Until such 
time as these policies and standards are in place, we have a system and 
processes that can and are accommodating limited access to the NAS in a 
manner that preserves the current level of safety. It's also important 
to note that, as with very light jets, any increase in the numbers of 
UASs in the NAS will be gradual.

    Question 4. Do you have any forecasts as to the expected growth of 
UASs over this period?
    Answer. FAA has not developed any forecasts due to the relative 
newness of this technology. Until the standards are developed and the 
technology is matured, it is difficult to develop such a prediction. 
FAA is aware of several externally developed projections that have 
forecasted spending levels by industry on the range of $5-8 billion 
over the next 10 years. This may correlate with the development for the 
activities being pursued by manufacturers in support of the U.S. 
Government, but it does not correlate with the minimal amount of 
interest that industry is showing in the area of civil applications, 
which would result in the pursuit of an Experimental Airworthiness 
Certificate.

                                  <all>

</pre></body></html>
